<html>
<title> - COUNTER-ISIL (ISLAMIC STATE OF IRAQ AND THE LEVANT) OPERATIONS AND MIDDLE EAST STRATEGY</title>
<body><pre>[Senate Hearing 114-647]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-647

                              COUNTER	ISIL
                 (ISLAMIC STATE OF IRAQ AND THE LEVANT)
                  OPERATIONS AND MIDDLE EAST STRATEGY

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 28, 2016

                               __________

         Printed for the use of the Committee on Armed Services







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








        Available via the World Wide Web: http://www.fdsys.gov/


                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-619 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


















                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman     JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma            BILL NELSON, Florida
JEFF SESSIONS, Alabama               CLAIRE McCASKILL, Missouri
ROGER F. WICKER, Mississippi         JOE MANCHIN III, West Virginia
KELLY AYOTTE, New Hampshire          JEANNE SHAHEEN, New Hampshire
DEB FISCHER, Nebraska                KIRSTEN E. GILLIBRAND, New York
TOM COTTON, Arkansas                 RICHARD BLUMENTHAL, Connecticut
MIKE ROUNDS, South Dakota            JOE DONNELLY, Indiana
JONI ERNST, Iowa                     MAZIE K. HIRONO, Hawaii
THOM TILLIS, North Carolina          TIM KAINE, Virginia
DAN SULLIVAN, Alaska                 ANGUS S. KING, JR., Maine
MIKE LEE, Utah                       MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina
TED CRUZ, Texas                      
                                    
                Christian D. Brose, Staff Director
                 Elizabeth L. King, Minority Staff 
                                   Director

                                  (ii)

  
  
  
  
  
  
  
  
  
  
  
  
  
  


                         C O N T E N T S

________________________________________________________________________

                             April 28, 2016

                                                                   Page

Counter-ISIL (Islamic State of Iraq and the Levant) Operations        1
  and Middle East Strategy.

Carter, Honorable Ashton B., Secretary of Defense................     4
Dunford, General Joseph F., Jr., USMC, Chairman of the Joint         13
  Chiefs of Staff.

Questions for the Record.........................................    61

                                 (iii)

 
                              COUNTER-ISIL
                 (ISLAMIC STATE OF IRAQ AND THE LEVANT)
                  OPERATIONS AND MIDDLE EAST STRATEGY

                              ----------                              


                        THURSDAY, APRIL 28, 2016

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in Room 
SH-216, Hart Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Fischer, Cotton, Rounds, Ernst, 
Tillis, Sullivan, Lee, Graham, Reed, Nelson, McCaskill, 
Manchin, Shaheen, Gillibrand, Blumenthal, Donnelly, Hirono, 
Kaine, King, and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning. Good morning, ladies. 
Good morning. The Senate Armed Services Committee meets this 
morning to receive testimony on the United States strategy in 
the Middle East and efforts to counter so-called Islamic State.
    I thank our distinguished witnesses for appearing before us 
this morning and for their continued service to our Nation 
during a time of war. Please convey the gratitude and 
appreciation of this committee to all the men and women you 
lead.
    Since our witnesses last appeared before this committee, we 
have seen a steady increase in operational activity in Iraq and 
Syria. Airstrikes have steadily increased and improved; new 
capabilities, such as the A-10 and now attack helicopters, have 
gradually been added; efforts to train and equip vetted Syrian 
forces have been restarted and slowly expanded; and additional 
United States troops have been periodically deployed to the 
fight, a few dozen and a few hundred at a time. These 
operational adjusted--adjustments have resulted in some 
operational gains. We have seen security--Iraqi Security Forces 
make modest gains against ISIL in Anbar Province, and a 
coalition of Syrian Kurds with small numbers of Sunni Arabs 
take territory away from ISIL across parts of northern Syria. 
All the while, the United States and coalition Special 
Operation Forces continue their daily degrading of ISIL 
fighters in Iraq and Syria. These gains are real and 
encouraging, and testify to the excellence of our military 
leaders and troops on the ground.
    The purpose of this hearing is certainly to review those 
operational issues, but, more importantly, to try to put them 
into some strategic context. Too often, it seems, policymakers, 
politicians, and the media all want to engage at the 
operational level. I understand. Military operations are 
important and interesting. But, I worry that we are staring at 
our challenges in the broader Middle East through soda straws. 
We need to lift our sights.
    At a more strategic level, we see a Middle East descending 
into chaos. In the words of Henry Kissinger--and I quote--
"There's a struggle for power within states, a conflict between 
states, a conflict between ethnic and religious groups, and an 
assault on the international system.'' While the epicenter of 
this conflict for power and identity is in Iraq and Syria, 
where ISIL established its caliphate, it is a growing contagion 
that affects Libya, Egypt, Yemen, parts of East and West 
Africa, Afghanistan, and beyond. As we have seen from Paris to 
San Bernardino to Brussels, this threat is increasingly capable 
of targeting us, as many of us predicted that it would. Yet, at 
this strategic level, we always seem to be a step behind, a day 
late, and a dollar short. While too many of our leaders, both 
in the administration and, yes, in the Congress, too, fixated 
on and sought to micromanage military operations in Iraq and 
Syria, ISIL executed a strategic countermove, launching 
sophisticated attacks into the heart of Western civilization 
and deepening its presence in Libya. In a country that America 
helped to liberate 5 years ago and then precipitously 
abandoned, we now see thousands of terrorists in training camps 
and reports of external attack plotting, all the warning signs 
that existed in Afghanistan on September 10th, 2001. The 
administration increasingly appears focused on this problem, 
but, once again, the response has been reactive, slow, and 
insufficient.
    Similarly with Russia, last year Vladimir Putin moved to 
fill the strategic vacuum that the United States has left in 
the Middle East. In its first out-of-country military since the 
time of the tsars, Russian forces moved into Syria, doubled 
down on the Assad regime, and decimated the moderate Syrian 
opposition groups that America and our allies said we were 
supporting. Russia has used Syria as a live-fire exercise for 
its modernizing military.
    Despite predictions of a Russian quagmire, Putin has 
instead used limited military means to achieve distinct 
political goals. Despite Putin's pledged withdrawal from Syria, 
Assad's forces, backed by Russia, now appear poised to retake 
Aleppo. Meanwhile, advanced Russian military capabilities 
remain in Syria, enhancing Putin's ability to project power 
beyond the region. Once again--once again--the U.S. response 
has appeared confused, reactive, and inadequate.
    None of this is happening because our adversaries are 10 
feet tall or somehow more capable than us. Instead, as 
sophisticated and ruthless as ISIL is, it has major strategic 
vulnerabilities, not least the resentment it engenders among 
the very Muslim communities it seeks to oppress. Vladimir Putin 
is playing a weak hand, economically and demographically, but 
he is consistently playing it better than we are playing ours.
    So, too, with the Iranian regime. Even with a windfall of 
sanctions relief, Iran--Tehran remains militarily and 
economically weak, but it is aggressively expanding its malign 
influence and subverting our long-term partners.
    Put simply, too many of our leaders appear involved in the 
tactical fight, the incremental calibration and escalation of 
military operations, and not enough in the strategic fight. 
Despite the real tactical gains we have made, we must ask 
ourselves, Is this working? Are we winning? Are we getting 
ahead of the threats and problems we face, or are they getting 
ahead of us? What enduring objectives do we hope to achieve 
across the Middle East, a region that is experiencing greater 
turmoil than at any time since the collapse of the Ottoman 
Empire? How will we achieve those goals? On what timeline and 
at what cost?
    I understand the American people are frustrated with 
Washington. I know there's a belief out there that we invaded 
and occupied Iraq, and it failed; that we intervened, but did 
not occupy, Libya, and it failed; and that we did not intervene 
in Syria, and that failed, too. But, what ties all of this 
together is that we left. We left. Or we never engaged, in the 
first place. We pulled away and stood back and tried to 
convince ourselves that everything would be all right. Look at 
the result. No new order has emerged in the Middle East. Only 
chaos. The vacuum we left behind has been filled by the most 
extreme and anti-American of forces: ISIL, al Qaeda, Iran and 
its terrorist proxies, and now Russia. We cannot afford to 
believe that this is not our problem. It is our problem.
    As General David Petraeus wrote last week, quote, ``The 
attacks and other activities of extremists will not be confined 
to the areas or regions in which they are located. Rather, as 
in the case of Syria, the actions of the extremist groups are 
likely to spew instability, extremism, violence, and refugees 
far beyond their immediate surroundings.''
    We cannot go on pretending that we can avoid these problems 
or that the current approach of trying to treat the symptoms of 
the disease, rather than its cause, will work if only we give 
it more time. It will not. We need to stop fixating on military 
details and look at the bigger picture. No one believes there 
are easy solutions to the underlying problems in the Middle 
East. But, after the past 7 years, this should--much should be 
clear. Walking away isn't the answer, and time is not on our 
side.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman. Let 
me join you in welcoming Secretary Carter and General Dunford.
    Gentlemen, thank you for your service to the Nation and 
your presence here today.
    This morning's hearing to update the committee on the 
status of coalition military operations against the Islamic 
State in Iraq and the Levant, or ISIL, is especially timely. It 
comes on the heels of visits to the region by the President, 
Secretary Kerry, and both of you as part of the 
administration's continuing review of our ongoing efforts as 
part of Operation Inherent Resolve. We look forward to hearing 
your assessment of the situation on the ground, the progress 
that has been made to date, and the military tasks that can be 
accomplished in the months ahead.
    In recent days, the Department has announced two 
deployments, one each for Iraq and Syria. These deployments are 
intended to bolster our efforts in those two countries as the 
focus of coalition operations increasingly turns to isolating 
Mosul and Raqqa, as well as ensuring that our partners on the 
ground in Iraq and Syria have the enabling support needed to 
continue their momentum against ISIL.
    The deployment to Iraq comes at a sensitive time for Prime 
Minister Abadi, who continues to struggle to bring together the 
Sunni, Shi'a, and Kurdish elements of the political 
establishment in Iraq, a complicated reality that was in full 
display earlier this week, when the Prime Minister partially 
reshuffled his Cabinet amidst stepped-up pressure by thousands 
of protesters threatening to storm the Parliament. As we 
consider our policy in Iraq, particularly, it's important to 
remember that the coalition is there at the invitation of the 
Iraqis, and we must remain cognizant of the political 
opposition of some to our continued and growing presence in the 
country. Ignoring that reality risks damaging our broader 
strategic goal of a lasting political solution for Iraq and the 
defeat of ISIL.
    In Syria, the cessation of hostilities has seen a growing 
number of violations in recent days. Of most concern are the 
violations by the forces of the Assad regime in Aleppo and the 
surrounding region. In March, President Putin announced Russia 
was to begin withdrawing its forces from Syria, but, as is 
often the case with President Putin, the public message is not 
consistent with the reality of events on the ground. According 
to reports, forces loyal to the Syrian Government are beginning 
to amass and concentrate combat power around Aleppo. These 
actions do not portend well for the direction of this conflict. 
I hope the Secretary and Chairman will provide their updated 
assessment on the military actions of the regime and Russian 
forces, and how these figure into our planning.
    One matter currently before the committee is a request by 
the administration to extend the DOD's authority to train and 
equipment the Moderate Syrian Opposition. As we consider this 
request, it is my assessment that, without our local Syrian 
partners on the ground, the recapture of Kobani, Hasakah, and 
Shadadi, and a number of other towns and villages would not 
have been possible, and I hope the Secretary and the Chairman 
will speak to the importance of this request for an extension.
    In addition to Iraq and Syria, I hope the Secretary or the 
Chairman will provide their updated assessment on the threat 
posed by ISIL's [the Islamic State of Iraq and the Levant] 
growing presence in Libya. There have been public reports of a 
number of United States military operations, Libya, and some 
suggestions that more may follow. As the committee moves 
towards the markup of the defense authorization bill, it's 
critical that we have a keen understanding of you--your view on 
the threat emanating from Libya.
    Gentlemen, I look forward to your testimony.
    Thank you, Mr. Chairman.
    Chairman McCain. Welcome. Secretary Carter.

 STATEMENT OF HONORABLE ASHTON B. CARTER, SECRETARY OF DEFENSE

    Secretary Carter. Chairman McCain, Ranking Member Reed, 
thank you. Thank you for those statements, and for this 
hearing, and for the range, both geographic and in terms of 
tactical, operational, and strategic, that you're asking us to 
speak to. Thank all the members of the committee for being 
here, for your interest in this. Above all, Chairman, thank you 
for thanking the troops. Means a lot. You have many 
opportunities to carry that to them directly, but I'll try to 
do that, too, when I do. Appreciate that.
    I will briefly, in my opening statement, address all of the 
aspects of the subjects raised in your two statements; 
obviously, our campaign to defeat ISIL, but, more broadly, our 
military strategy in the Middle East. I appreciate that this is 
my seventh appearance before this committee, the fifth one 
focused on the Middle East, since I became Secretary of 
Defense. The timing is, as Senator Reed noted, fortuitous, in 
the sense, I just returned from a 2-week trip to the Asia-
Pacific and also the Middle East, both regions critical to 
United States and global security, and where our men and women 
in uniform are deeply engaged, as they are all over the world. 
It's emblematic of why, with all the challenges going on today, 
particularly the five challenges I discussed with you last 
month in my budget testimony--namely Russia, China, North 
Korea, Iran, and terrorism, especially ISIL--DOD can't choose 
between one or the other, or between acting in the present and 
investing in the future. We have to do them all.
    While there's much I could say about the Asia-Pacific, I'm 
obviously going to focus my comments here today on the Middle 
East. There our actions and our strong military posture 
continue to be guided by our North Star of what's in America's 
national interests. These are several things. They include 
dealing ISIL a lasting defeat. That was the principal purpose 
of my visit to Iraq last week, where I conferred with our 
commanders and visited with our troops, met with Prime Minister 
Abadi and Defense Minister Obeidi, spoke to Kurdistan Regional 
Government President Barzani, and announced a number of key 
next steps that our--President Obama has directed to further 
accelerate the defeat of ISIL. More on that in a moment.
    When I appeared before this committee to discuss our 
counter-ISIL campaign in early December, I outlined how we 
embarked--had embarked on a major acceleration of this 
campaign, an effort Chairman Dunford and I had recommended to 
the President in October. It consisted of multiple steps. 
First, there were a number of immediate accelerants. We 
deployed additional strike aircraft to Incirlik, supporting an 
expanded air campaign against new targets and new categories of 
targets illuminated by refined intelligence. We deployed an 
initial contingent of Special Operations Forces to Syria. We 
expanded equipping of Syrian Arab forces engaged in the fight 
against ISIL. We began enabling capable, motivated, local 
forces in southern Syria, also, and enhancing Jordan's border 
control and defenses. We leveraged airpower and advisors to 
help the Peshmerga take Sinjar, cutting the Iraqi side of the 
main line of communication between ISIL's power centers in 
Raqqa and Mosul. We introduced an expeditionary targeting 
force. We worked to improve our ability to target ISIL's 
leadership and presence beyond Iraq and Syria. We started to 
expand the military campaign against ISIL to every domain, 
including cyber and space.
    All these capabilities were marshaled against a clear 
coalition military campaign plan, focusing on operations on 
three objectives. One, destroying ISIL's parent tumor in Iraq 
and Syria, which is necessary--not sufficient, but necessary. 
Second, combating the metastases of the ISIL tumor worldwide, 
wherever they appear, as has been noted by both the Chairman 
and Senator Reed. Three, our most important mission, which is 
to help protect the Homeland.
    In addition to accelerating the campaign with additional 
U.S. capabilities, we renewed our outreach to coalition 
members. Over the last 3 months, I've conveyed my--convened my 
counterparts several times--in Paris, Brussels, last week in 
Riyadh, next week in Europe--to brief them on the coalition 
military command plan, but, above all, to urge them to 
contribute more, and in more meaningful ways.
    Since we embarked on that major acceleration, results 
followed. They've continued even in recent weeks. On the 
battlefield in Iraq, the Iraqi Security Forces retook Ramadi 
and Hit, and, along with Kurdish Peshmerga, have begun 
operations to isolate and pressure Mosul, with the intent to 
collapse ISIL's control over that city. In Syria, capable and 
motivated local forces, supported by our coalition, retook the 
Tishrin Dam, in the west, and the town of Shadadi, in the east, 
cutting off two significant lines of communication in Raqqa, 
including one of the last major northern arteries between Raqqa 
and Mosul, and therefore, between ISIL in Syria and ISIL in 
Iraq.
    We've also seen results in targeting ISIL's leaders and 
finances. We've systematically eliminated ISIL's Cabinet, 
having taken out its so-called Ministers of War and Finance. We 
captured one of the principals of ISIL's chemical warfare 
enterprise, removed external plotters from the battlefield, 
and, most recently, took out the ISIL emir for southern Mosul, 
weakening ISIL's ranks there.
    Our attacks on ISIL's economic infrastructure, from oil 
wells and trucks to cash storage to ISIL's financial leaders, 
is putting a stranglehold on ISIL's ability to pay its 
fighters, undermining its ability to govern, and making it 
harder to attract new recruits.
    These are the results in our coalition's--there are also 
results in our coalition's train-and-equip efforts, as well. So 
far, with your support in Congress, we've trained over 20,000 
Iraqi Security Forces and provided six full brigade sets of 
equipment to the Iraqi Army. We've provided two brigade sets to 
the Peshmerga, part of more than 12 million pounds of critical 
supplies donated by more than 20 countries. For our part, 
ranging from ammunition to small, medium, and heavy weapons to 
counter-IED equipment.
    Meanwhile, in addition to the local forces we're working 
with in both Iraq and Syria, 90 percent of our military 
coalition partners from Europe, the Gulf, and Asia--26 
countries in all--have committed, in the past few months, to 
increase their contributions to help accelerate the defeat of 
ISIL.
    All this has been necessary for putting ISIL on a path to 
the lasting defeat. But, it's not sufficient. Indeed, I've 
consistently told you that we're looking to do more, and that 
we would be doing more. As we take advantage of opportunities, 
we're generating new ones, and then seizing those opportunities 
to repeat this cycle, reinforcing success. This has been our 
intent and is consistent with our overall strategic approach, 
which is to enable capable, motivated, local forces to 
recapture and then hold and govern territory tyrannized by 
ISIL.
    Now, based on the results we've had and on our desire to 
continue accelerating ISIL's lasting defeat, we are conducting 
the next plays of the military campaign. They are, one, 
stabilizing Iraq's Anbar Province; two, generating Iraqi 
Security Forces to envelope Mosul; three, identifying and 
developing more local forces in Syria that will isolate and 
pressure Raqqa; and, four, providing more firepower, 
sustainment, and logistical support to our partners to enable 
them to collapse ISIL's control over both these cities.
    To help facilitate these next plays, we're taking a number 
of key actions in both Iraq and Syria, actions President Obama 
directed and that he and I announced over the last week and a 
half. I should note that the President has approved all the 
actions that Chairman Dunford and I have recommended to him to 
date.
    In Iraq, our actions are in support of Iraqi Security 
Forces operations to isolate and pressure Mosul. They've all 
been approved by Prime Minister Abadi. As I told our troops in 
Baghdad last week, we'll be placing advisors with the ISF down 
to the brigade and battalion level. We'll be leveraging Apache 
attack helicopters to support the ISF's effort to envelope and 
then retake Mosul. We'll send additional HIMARS to support the 
Iraqi ground offensive there. We'll provide financial 
assistance to the Peshmerga, up to $415 million, to bolster one 
of the most effective fighting forces against ISIL. To do all 
this, we're going to adjust how we use U.S. forces--the United 
States forces already in Iraq, and immediately bring in about 
215 more of them.
    In Syria, our actions are to help our local partners 
continue isolating and pressuring Raqqa. As the President 
announced on Monday, we're increasing U.S. forces there 
sixfold, from 50 to 300. These additional 250 personnel, 
including Special Operations Forces, will help expand our 
ongoing efforts to identify, train, and equip capable, 
motivated, local anti-ISIL forces inside Syria, especially 
among the Sunni Arab community. They'll also serve as a hub to 
incorporate partners' Special Forces from both European and 
gulf partners that will augment our coalition's counter-ISIL 
efforts there.
    In the meantime, in addition to initiating training inside 
Syria, we're also continuing to train and equip other vetted 
Syrian forces outside of Syria, keeping our focus, as we have 
in recent months, on battle-hardened, proven anti-ISIL leaders, 
whom we can make more capable as enablers and amplifiers of our 
effects. In this context, let me say that the section 1209 
program is central to our ground campaign in Syria, and we're 
now carrying out a different approach than before; instead, one 
that we've used to train and enable local elements that have 
proven themselves against ISIL on the battlefield. We've moved 
away from last year's disappointments with a former approach to 
the program, and we need your support to fully overcome them. 
Focus on the program as it is now, and, in particular, release 
the now $349 million in 1209 funding currently blocked by 
Congress.
    Mr. Chairman, I understand you intend to help clear these 
funds with the committee, and I hope other committees will 
follow suit. I'm grateful for that. The fact is, our command--
for our commanders to be agile in accelerating our cam 
against--campaign against ISIL, we need a similarly agile 
congressional funding process.
    We're required to submit reprogramming requests, as you all 
know, to the four congressional defense committees. so far, on 
these funds, we've received differing responses on differing 
timelines, and sometimes with conflicting demands. We must get 
this working better, going forward.
    I would also urge you and the other three defense 
committees to consider ending the reprogramming requirement for 
Syria so that it's on equal footing with how you've structured 
our oversight--your oversight of our train-and-equip programs 
in Iraq and Afghanistan. As it stands, the current setup 
involves--invites troubling micromanagement of a wartime 
effort, and risks inhibiting results.
    Beyond Iraq and Syria, we're also addressing ISIL's 
metastases. In Afghanistan, since we authorized our forces to 
conduct targeted strikes against ISIL there, we've been able to 
degrade the terrorist groups' elements in that country. In 
Libya, we have continued to follow ISIL activities closely, 
undertaking a successful strike last year in which we took out 
ISIL's key leader in the country. Another strike in February 
against an ISIL training camp. As the new Libyan Government 
gets on its feet, we will support it in the fight against ISIL. 
We will counter ISIL and work with partners wherever ISIL has 
or tries to gain a foothold, whether in Yemen, West Africa, or 
South or Southeast Asia.
    Even as we do more, we're continuing to marshal our friends 
and allies across the counter-ISIL coalition to do more also to 
accelerate ISIL's lasting defeat. When I met with my 
counterparts from the Gulf Cooperation Council last week, I 
emphasized the importance of their countries doing more, not 
only militarily, as Saudi Arabia and the UAE have been doing, 
but also politically and economically. That's because Sunni 
support for stabilization, multisectarian governance, and 
reconstruction will all be critical to ensuring that ISIL stays 
defeated.
    Mr. Chairman, I just want to second the point you made, 
which is, in the region, in my conversations there, parties are 
already beginning to look beyond the defeat of ISIL and ask 
what their situation is at that point. That's--reinforces the 
need, as you indicated, to think strategically.
    Next week, in Stuttgart, Germany, I'll be convening my 
fellow Defense Ministers from the major contributors to the 
military campaign to discuss ways we can all continue to 
accelerate our efforts. That said, while the military momentum 
is gathering strength and ISIL is struggling to resist our 
multifaceted pressure, I am increasingly concerned about 
political, economic, and diplomatic challenges in both Iraq and 
Syria affecting the pace of the military campaign.
    In Iraq, as the proximity of the ISIL threat against 
Baghdad has diminished, political ambitions have created 
discord. In some instances, ethnosectarian competition has 
increased, creating an added burden and distraction for Prime 
Minister Abadi's government before the task of defeating ISIL 
is complete. This, of course, is occurring while Iraq struggles 
with significant fiscal challenges due to the lower price of 
oil and a huge reconstruction bill as it retakes cities from 
ISIL.
    In Syria, competing agendas for the future of the political 
transition are inhibiting the generation and coalescing of 
anti-ISIL forces. Secretary Kerry, Secretary Lew, and my 
colleagues from the other departments and agencies are focused 
on this intently, but they need support from you in Congress to 
help ensure that military momentum is matched with political 
and economic momentum, and that the military defeat of ISIL in 
Syria and Iraq, when it is complete, will be lasting.
    I've articulated a clear strategy, with the end state being 
a lasting defeat of ISIL. That means it must be achieved by 
local forces. Our strategic approach is, therefore, to enable 
such forces, to collapse ISIL's control of Mosul and Raqqa by 
bringing to bear in support of them the full might of the U.S. 
military through some of our most unique capabilities, such as 
precision air campaign and expeditionary targeting forces, 
offensive operations in cyberspace, training, logistics, 
sustainment, and equipment. Enabling local forces, not 
substituting for them, is necessary to ensure a lasting defeat. 
Sometimes that means our pace is predicated on the speed at 
which local forces can absorb our enabling.
    Now, some seem to suggest we pursue different strategies. 
There are, in fact, alternative strategies. I've addressed 
these alternatives in previous testimonies. But, we don't 
recommend them. Here is why:
    One alternative would be to leave the complex and chaotic 
Middle East, try to contain ISIL's danger to the United States 
and target terrorists entirely from offshore. An approach of 
this sort has its attractions, since it avoids the many 
complexities of the Middle East. But, the reality is that such 
a containment approach simply cannot succeed in today's 
connected and globalized world. I don't recommend it.
    Another alternative would be to introduce a significant 
foreign ground force, hypothetically international, although 
almost certainly preponderantly American, to capture Raqqa and 
Mosul and other territories used by ISIL. But, as I have 
testified previously, there are several problems with this 
approach that have led me not to recommend it either. In the 
near term, such a strategic approach would entail a significant 
military undertaking that, much as we'd wish otherwise, 
realistically we would embark upon largely by ourselves. It 
would be ceding our competitive advantage of Special Forces, 
mobility, and firepower; instead, fighting on the enemy's terms 
of ground combat amidst a local population that has previously 
responded violently to such an approach.
    In the medium term, by seeming to Americanize or Westernize 
the effort to expel ISIL from the populations of Iraq and 
Syria, we might turn those local people who are fighting ISIL, 
who are inclined to resist their rule, into fighting us 
instead. As Chairman Dunford has said, ISIL, quote, ``would 
love nothing more than a large presence of United States forces 
on the ground in Iraq and Syria so that they could have a call 
to jihad,'' end quote.
    Lastly, in the long term, there would still remain the 
problem of securing and governing the territory recaptured, 
which, in the end, must be done by local forces. We cannot 
substitute for them.
    The bottom line is this. We can't ignore this fight, but we 
also can't win it entirely from the outside in. That's why 
we're helping capable, motivated local forces in every way we 
can without taking their places.
    Finally, I want to include with--conclude with a few word 
about--words about resources, as I have serious concerns with a 
proposal from one of the defense committees to underfund DOD's 
overseas warfighting accounts by $18 billion and spend that 
money on programmatic items we didn't request. I have to say, 
this approach is deeply flawed and troubling. Having detailed 
my objections yesterday before the Appropriations Committee, 
today, in this context of this testimony, I just want to 
highlight the danger of underfunding our war effort and 
gambling with funding for our troops in places like Iraq and 
Syria. As Secretary of Defense, I cannot support such a 
maneuver.
    Indeed, it's exceedingly important that we provide our 
troops and commanders in the field with all the resources they 
need to succeed. I know that, with your support, and with the 
continued dedication of our people and our partners, we will 
deliver ISIL a lasting defeat.
    Thank you.
    [The prepared statement of Secretary Carter follows:]

         Prepared Statement by Secretary of Defense Ash Carter
    Chairman McCain, Ranking Member Reed, Members of the Committee:
    Thank you for having me and Chairman Dunford here today to describe 
our campaign against ISIL, and more broadly, United States military 
strategy in the Middle East. I appreciate that this is my seventh 
appearance before this committee, and the fifth one focused on the 
Middle East, since I became Secretary of Defense last spring. I should 
note that your timing is fortuitous. I just returned from a two-week 
trip to the Asia-Pacific and the Middle East--both regions critical to 
U.S. and global security, and where our men and women in uniform are 
deeply engaged, as they are all over the world. It's emblematic of why, 
with all the challenges going on today--particularly the five 
challenges I discussed with you last month in my budget testimony, 
namely Russia, China, North Korea, Iran, and terrorism, especially 
ISIL--DOD can't choose between one or another, or between acting in the 
present and investing in the future. We have to do it all.
    While there's much I could say about the Asia-Pacific, I will of 
course focus my opening comments here today on the Middle East. There, 
our actions and our strong military posture continue to be guided by 
our North Star of what's in America's national interests . . . these 
are several things, but including dealing ISIL a lasting defeat.
    That was the principal purpose of my visit to Iraq last week, where 
I conferred with our commanders and visited with our troops; met with 
Prime Minister Abadi and Defense Minister Ubaidi; spoke to Kurdistan 
Regional Government President Barzani; and announced a number of key 
next steps that President Obama has directed to further accelerate the 
defeat of ISIL . . . more on that in a moment.
    When I appeared before this committee to discuss our counter-ISIL 
campaign in early December, I outlined how we had embarked on a major 
acceleration of this campaign--an effort Chairman Dunford and I had 
recommended to the President in October. It consisted of multiple 
steps.
    First, there were a number of immediate accelerants. We deployed 
additional strike aircraft to Incirlik, supporting an expanded air 
campaign against new targets and new categories of targets illuminated 
by refined intelligence. We deployed an initial contingent of special 
operations forces to Syria. We expanded equipping of Syrian Arab forces 
engaged in the fight against ISIL. We began enabling capable, motivated 
local forces in southern Syria, and enhancing Jordan's border control 
and defenses. We leveraged air power and advisors to help the Peshmerga 
take Sinjar, cutting the Iraqi side of the main line of communication 
between ISIL's power centers in Raqqa and Mosul. We introduced an 
expeditionary targeting force. We worked to improve our ability to 
target ISIL's leadership and presence beyond Iraq and Syria. We started 
to expand the military campaign against ISIL to every domain, including 
cyber and space.
    All these capabilities were marshaled against a clear coalition 
military campaign plan focusing operations on three objectives: one, 
destroying ISIL's parent tumor in Iraq and Syria; two, combatting the 
metastases of the ISIL tumor worldwide wherever they appear; and three, 
our most important mission, which is to help protect the Homeland.
    In addition to accelerating the campaign with additional U.S. 
capabilities, we renewed our outreach to coalition members. Over the 
last three months, I've convened my counterparts several times--in 
Paris, Brussels, and Riyadh--to brief them on the coalition military 
campaign plan, and urge them to contribute more, and in more meaningful 
ways.
    Since we embarked on that major acceleration, results followed, and 
they've continued even in recent weeks.
    On the battlefield in Iraq, the Iraqi Security Forces retook Ramadi 
and Hit, and along with Kurdish Peshmerga have begun operations to 
isolate and pressure Mosul, with the intent to collapse ISIL's control 
over that city. In Syria, capable and motivated local forces supported 
by our coalition retook the Tishreen Dam in the west and the town of 
Shaddadi in the east . . . cutting off two significant lines of 
communication into Raqqa, including one of the last major northern 
arteries between Raqqa and Mosul, and therefore between ISIL in Syria 
and ISIL in Iraq.
    We've also seen results in targeting ISIL's leaders and finances. 
We're systematically eliminating ISIL's ``cabinet,'' having taken out 
its so-called ministers of war and finance. We captured one of the 
principals of ISIL's chemical warfare enterprise, removed external 
plotters from the battlefield, and most recently took out the ISIL emir 
for southern Mosul, weakening ISIL's ranks there. Our attacks on ISIL's 
economic infrastructure--from oil wells and trucks to cash storage 
sites to ISIL's financial leaders--is putting a stranglehold on ISIL's 
ability to pay its fighters, undermining its ability to govern, and 
making it harder to attract new recruits.
    There are results in our coalition's train-and-equip efforts, as 
well. So far, with Congress's support, we've trained over 20,000 Iraqi 
Security Forces, and provided six full brigade sets of equipment to the 
Iraqi Army. We've provided two brigade sets to the Peshmerga, part of 
more than 12 million pounds of critical supplies donated by more than 
20 countries--for our part, ranging from ammunition, to small, medium, 
and heavy weapons, to counter-IED equipment.
    Meanwhile, in addition to the local forces we're working with in 
both Iraq and Syria, 90 percent of our military coalition partners--
from Europe, the Gulf, Asia; 26 countries in all--have committed in the 
past few months to increase their contributions to help accelerate the 
defeat of ISIL.
    All this has been necessary for putting ISIL on a path to a lasting 
defeat, but it's not sufficient. Indeed, I've consistently told you 
that we're looking to do more and that we would be doing more. As we 
take advantage of opportunities, we're generating new ones, and then 
seizing those opportunities to repeat this virtuous cycle--reinforcing 
success. This has been our intent and is consistent with our overall 
strategic approach, which is to enable capable, motivated local forces 
to recapture and then hold and govern territory tyrannized by ISIL.
    Now, based on the results we've had, and our desire to continue 
accelerating ISIL's lasting defeat, we are conducting the `next plays' 
of the military campaign. They are: one, stabilizing Iraq's Anbar 
Province; two, generating Iraqi Security Forces to envelop Mosul; 
three, identifying and developing more local forces in Syria that will 
isolate and pressure Raqqa; and four, providing more firepower, 
sustainment, and logistical support to our partners to enable them to 
collapse ISIL's control over both those cities.
    To help facilitate these next plays, we're taking a number of key 
actions in both Iraq and Syria--actions President Obama directed and 
that he and I announced over the last week and a half. I should note 
that the President has approved all the actions that Chairman Dunford 
and I have recommended to him to date.
    In Iraq, our actions are in support of ISF operations to isolate 
and pressure Mosul. They've all been approved by Prime Minister Abadi.
    As I told our troops in Baghdad last week, we'll be placing 
advisors with the ISF down to the brigade and battalion level. We'll be 
leveraging Apache attack helicopters to support the ISF's efforts to 
envelop and then retake Mosul. We'll send additional HIMARS to support 
the Iraqi ground offensive there. We'll provide financial assistance to 
the Peshmerga, up to $415 million, to bolster one of the most effective 
fighting forces against ISIL. To do all this, we're going to adjust how 
we use the U.S. forces already in Iraq, and immediately bring in about 
215 more of them.
    In Syria, our actions are to help our local partners continue 
isolating and pressuring Raqqa.
    As the President announced on Monday, we're increasing U.S. forces 
there six-fold, from 50 to 300. These additional 250 personnel, 
including special operations forces, will help expand our ongoing 
efforts to identify, train, and equip capable, motivated local anti-
ISIL forces inside Syria, especially among the Sunni Arab community. 
They'll also serve as a hub to incorporate partner SOF--from both 
European and Gulf partners--that will augment our coalition's counter-
ISIL efforts there.
    In the meantime, in addition to initiating training inside of 
Syria, we're also continuing to train and equip other vetted Syrian 
forces outside of Syria--keeping our focus, as we have in recent 
months, on battle-hardened, proven anti-ISIL leaders whom we can make 
more capable as enablers and amplifiers of our effects.
    In this context, the section 1209 program is central to our ground 
campaign in Syria, and we're now carrying out a different approach than 
before--and instead one that we've used to train and enable local 
elements that have proven themselves against ISIL on the battlefield. 
We've moved away from last year's disappointments with the former 
approach to the program, and we need your support to fully overcome 
them, focus on the program as it is now, and, in particular, release 
the now $349 million in 1209 funding currently being blocked by 
Congress.
    Mr. Chairman, I understand you intend to help clear these funds 
with this committee. I hope the other committees will follow suit.
    The fact is, for our commanders to be agile in accelerating our 
campaign against ISIL, we need a similarly agile Congressional process. 
We are required to submit reprogramming requests to the four 
Congressional defense committees, and so far on these funds we've 
received differing responses, on differing timelines, and sometimes 
with conflicting demands. We must get this working better going 
forward. I would also urge you and the other three defense committees 
to consider ending the reprogramming requirement for Syria, so that 
it's on equal footing with how you've structured your oversight of our 
train-and-equip programs in Iraq and Afghanistan. As it stands, the 
current setup invites troubling micromanagement of a wartime effort, 
and risks inhibiting results.
    Beyond Iraq and Syria, we're also addressing ISIL's metastases. In 
Afghanistan, since we authorized our forces to conduct targeted strikes 
against ISIL there, we've been able to degrade the terrorist group's 
elements in the country. In Libya, we have continued to follow ISIL 
activities closely, undertaking a successful strike last year in which 
we took out ISIL's key leader in the country, and another strike in 
February against an ISIL training camp. As the new Libyan Government 
gets on its feet, we will support it in the fight against ISIL. We will 
counter ISIL and work with partners wherever ISIL has or tries to gain 
a foothold, whether in Yemen, West Africa, or South and Southeast Asia.
    Even as we do more, we're continuing to marshal our friends and 
allies across the counter-ISIL coalition to do more also to accelerate 
ISIL's lasting defeat.
    When I met with my counterparts from the Gulf Cooperation Council 
last week, I emphasized the importance of their countries doing more . 
. . not only militarily, as Saudi Arabia and the UAE have been doing, 
but also politically and economically. That's because Sunni support for 
stabilization, multi-sectarian governance, and reconstruction will all 
be critical to ensuring that ISIL stays defeated. Next week, in 
Stuttgart, Germany, I'll be convening my fellow defense ministers from 
the major contributors to the military campaign, to discuss ways we can 
all continue to accelerate our efforts.
    That said, while the military momentum is gathering strength and 
ISIL is struggling to resist our multi-faceted pressure, I am 
increasingly concerned about political, economic, and diplomatic 
challenges in both Iraq and Syria affecting the pace of the military 
campaign.
    In Iraq, as the proximity of the ISIL threat against Baghdad has 
diminished, political ambitions have created discord, and, in some 
instances, ethno-sectarian competition has increased--creating an added 
burden and distraction for Prime Minister Abadi's government before the 
task of defeating ISIL is complete. This, of course, is occurring while 
Iraq struggles with significant fiscal challenges due to the lower 
price of oil and a huge reconstruction bill as it retakes cities from 
ISIL. In Syria, competing agendas for the future of the political 
transition are inhibiting the generation and coalescing of anti-ISIL 
forces. Secretary Kerry, Secretary Lew, and my colleagues from the 
other departments and agencies are focused on this intently, but they 
need support from you in Congress to help ensure that military momentum 
is matched with political and economic momentum, and that the military 
defeat of ISIL in Syria and Iraq, when it is complete, will be lasting.
    I've articulated a clear strategy with the end-state being a 
lasting defeat of ISIL--and that means it must be achieved by local 
forces. Our strategic approach is therefore to enable such forces to 
collapse ISIL's control of Mosul and Raqqa, by bringing to bear in 
support of them the full might of the United States military through 
some of our most unique and cutting-edge capabilities . . . such as a 
precision air campaign, an expeditionary targeting force, offensive 
operations in cyberspace, training, logistics, sustainment, and 
equipment. Enabling local forces--not substituting for them--is 
necessary to ensure a lasting defeat. Sometimes that means our pace is 
predicated on the speed at which local forces can absorb our enabling.
    Some seem to suggest we pursue different strategies. There are, in 
fact, alternative strategies, and I've addressed these alternatives in 
previous testimonies. But we don't recommend them, and this is why:
    One alternative would be to leave the complex and chaotic Middle 
East, try to contain ISIL's danger to the United States, and target 
terrorists entirely from off-shore. An approach of this sort has it 
attractions, since it avoids the many complexities of the Middle East. 
But the reality is that such a containment approach simply cannot 
succeed in today's connected and globalized world, and I do not 
recommend it.
    Another alternative would be to introduce a significant foreign 
ground force--hypothetically ``international,'' although almost 
certainly preponderantly American--to capture Raqqa and Mosul and other 
territory seized by ISIL. But as I have testified previously, there are 
several problems with this approach that have led me not to recommend 
it either.
    In the near-term, such a strategic approach would entail a 
significant military undertaking that, much as we'd wish otherwise, 
realistically we would embark upon largely by ourselves. It would be 
ceding our comparative advantage of special forces, mobility, and 
firepower, instead fighting on the enemy's terms of ground combat amid 
a local population that has previously responded violently to such an 
approach.
    In the medium-term, by seeming to Americanize or Westernize the 
effort to expel ISIL from the populations of Iraq and Syria, we might 
turn those local people who are fighting ISIL, or who are inclined to 
resist their rule, into fighting us instead. As Chairman Dunford has 
said, ISIL ``would love nothing more than a large presence of United 
States forces on the ground in Iraq and Syria, so that they could have 
a call to jihad.''
    Lastly, in the long-term, there would still remain the problem of 
securing and governing the territory recaptured, which in the end must 
be done by local forces. We simply cannot substitute for them.
    The bottom line is this: We can't ignore this fight, but we also 
can't win it entirely from the outside in. That's why we're helping 
capable, motivated local forces in every way we can, without taking 
their place.
    Finally, I want to conclude with a few words about resources, as I 
have serious concerns with a proposal from one of the defense 
committees to underfund DOD's overseas warfighting accounts by $18 
billion, and spend that money on programmatic items we didn't request. 
I have to say this approach is deeply troubling and flawed. Having 
detailed my objections yesterday before the Appropriations Committee, 
today, in the context of this testimony, I want to highlight the danger 
of underfunding our war effort and gambling with funding for our troops 
in places like Iraq and Syria. As Secretary of Defense, I cannot 
support such a maneuver.
    Indeed, it's exceedingly important that we provide our troops and 
commanders in the field with all the resources they need to succeed. I 
know that with your support, and with the continued dedication of our 
people and our partners, we will deliver ISIL a lasting defeat.
    Thank you.

    Chairman McCain. Thank you, Mr. Chairman.
    General Dunford.

STATEMENT OF GENERAL JOSEPH F. DUNFORD, JR., USMC, CHAIRMAN OF 
                   THE JOINT CHIEFS OF STAFF

    General Dunford. Chairman McCain, Ranking Member Reed, 
distinguished members of the----
    Chairman McCain. Mr. Secretary, I mean.
    General Dunford. Chairman McCain, Ranking Member Reed, 
distinguished members of the committee, thanks for the 
opportunity to join Secretary Carter in appearing before you 
today to talk about the counter-ISIL campaign.
    Secretary Carter just provided a campaign update and an 
overview of our strategic approach. Before taking your 
questions, I'd like to briefly share my perspective on where we 
are in the military campaign, and where we're going.
    Mindful that ISIL is a transregional threat with affiliates 
located from South Asia to West Africa, our top priority 
remains to disrupt attacks against the Homeland, the American 
people, our allies, and our partners, regardless of the source. 
We continue to assess that the most dangerous threat remains 
core ISIL in Iraq and Syria.
    I just returned from Iraq last week and received the 
campaign update from our commanders and Iraqi leadership. I 
also had the opportunity to visit with our troops and to 
observe Iraqi forces at their training sites. While the 
situation is complex, with no shortage of political and 
military challenges, I was encouraged by what I heard and what 
I saw on the ground. Last fall, it would have been fair to say 
that ISIL had the momentum. I don't believe that is any longer 
the case.
    Without repeating the detailed progress outlined by 
Secretary Carter, I'll summarize by saying that, with our 
strikes, and in conjunction with Iraqi Security Forces, the 
Peshmerga, and Sunni tribal forces, we've reduced ISIL's 
territorial control, undermined its brand and aura of 
invincibility, and destroyed much of its warfighting 
capability. The enemy's resources and freedom of movement have 
also been significantly reduced. The pressure we are applying 
is degrading the enemy's morale. More importantly, the progress 
of the last several months has instilled confidence in our 
Iraqi partners. They believe they can defeat ISIL.
    Currently, Iraqi forces are continuing operations in the 
Anbar Province while simultaneously conducting shaping 
operations to isolate Mosul. In the months ahead, Iraqi forces, 
the Peshmerga, and Sunni tribal forces will bring increasing 
pressure to bear against the enemy in Mosul. Meanwhile, we'll 
be aggressive in looking for opportunities to reinforce 
success, as Secretary Carter has said, and we'll seize every 
opportunity to maintain the momentum and increase the 
effectiveness of our partners.
    Similarly, in Syria, the pressure we've put on ISIL has 
degraded their capabilities, limited their freedom of movement, 
and reduced their resources. In the past few months, the local 
Kurdish and Arab forces that we support have retaken a 
significant percentage of the territory previously under ISIL 
control in northeast Syria.
    Other vetted Syrian opposition forces are currently 
fighting along the Turkish-Syrian border in operations that 
will put additional pressure on ISIL, further stemming the flow 
of foreign fighters and supplies into Syria. The recent 
authorization of additional United States forces in Syria will 
allow us to increase the capacity and capability of indigenous 
ground forces and set the conditions for operations against 
Raqqa.
    In closing, I believe we've moved the campaign forward over 
the last few months. The progress is real. That said, we're not 
satisfied or complacent about where we are, and we won't be 
satisfied until ISIL is defeated in Iraq and Syria and wherever 
it attempts to take root.
    Once against, thanks for the opportunity to appear before 
you this morning, and I look forward to your questions.
    Chairman McCain. Thank you very much, General.
    You know, Secretary Carter, it's frustrating to a lot of us 
to--as you outlined the options that we have, the option that 
you left out, which is entirely doable--and I know this for a 
fact--is if we had a--about 10,000 of 100,000-person 
contingent, of which the Sunni nations would contribute, that 
would go in, on the ground, and take Raqqa and Mosul. When you 
talk about the territorial gains, you forget to mention that 
the second-largest city in Iraq is still in ISIS [the Islamic 
State of Iraq and Syria] hands, and they have, still, no 
strategy, so far, to retake Raqqa. But, it's really frustrating 
to us when you set up these strawmen that the only alternatives 
we have is to walk away, and the other is a preponderantly 
American force. That's not true. The other option is--that we 
have been pushing for months and months, years--is a 
international force, of which the United States would be a 
small component of. That is doable. When I keep hearing this, 
that, ``Oh, we only have these two choices,'' it's--I say, with 
all due respect, it's intellectually dishonest.
    Now, when--on the issue of the reprogramming, yes, I was, 
quote, ``blocking'' the approval of the reprogramming, until 
yesterday, when I had a very excellent briefing from General 
Dunford that cleared up concerns that I had. Why did I have 
those concerns, Mr. Secretary?--is because, when we spent a 
couple of hundred-million dollars the last time, then the 
Commander of Central Command testified before this committee 
that we had four or five people left after expending a couple 
of hundred-million dollars in what I predicted would be an 
abysmal failure, which was making these people pledge that they 
would only attack ISIL.
    Now, my question is, Is that still the case with this 
force? Are they prohibited from responding to being attacked by 
Syria?
    Secretary Carter. Thank you, Chairman. I'll address both of 
your questions and ask the Chairman to do the same.
    You're right, I described two bookends, if you like, and 
there are various gradations in between. So, I--you're 
absolutely right.
    With respect to the option you describe of a 9-to-1 ratio 
of international forces to U.S. forces, that would be a highly 
desirable circumstance to be in. I do not--I doubt that'll--I 
have no indication from those countries, despite a lot of 
effort----
    Chairman McCain. I----
    Secretary Carter.--of a willingness to do that.
    The second point I'd just like to make, and then I'll leave 
that point, is the--as I was describing the possibility of 
foreign forces entering Iraq and Syria, I tried to describe 
there the welcome that they might receive and the remaining 
issue of sustaining territory once it is taken and held. I 
think that's the principal strategic issue with a large foreign 
force, whether American or----
    Chairman McCain. Please----
    Secretary Carter.--hypothetically----
    Chairman McCain. Please accelerate your answer. I----
    Secretary Carter. I will.
    Second, on the 1209 program, thank you for that, Chairman. 
I just want to acknowledge--and I acknowledged this last year--
we made a disappointing start at that, and no bones about that. 
We have changed the approach to that, fundamentally. I hope--I 
believe--in fact, the Chairman has described that to you, and 
that's the basis on which you've indicated a willingness to 
support it.
    Just to be brief about what the difference is, we were 
trying, when that program was initiated, to make forces, brand-
new forces to counter ISIL in Syria. Our approach now is to 
identify--and this is where the Special Forces have been valued 
to--valuable to us--forces already fighting ISIL, whom we can 
enable, with the great might of the American military. That's 
our new approach.
    Chairman McCain. Thank you.
    Secretary Carter. Chairman.
    Chairman McCain. Please--don't want--I've got to ask more 
questions.
    Don't--do you believe that the cease-fire is collapsing, 
General Dunford?
    General Dunford. Chairman, I do believe there's some 
difficulty with the cease-fire.
    Chairman McCain. So, that--and we know what happened last 
time, before the cease-fire, and that was that the Russian air 
was bombing the daylights out of the moderate forces, many of 
which we have trained and equipped. What are we going to do--
with the collapse of the cease-fire, a resumption of Russian 
bombing of American-trained forces, what is going to be our 
option there?
    General Dunford. Chairman, if our forces are attacked by 
regime forces, we have the authority to respond.
    Chairman McCain. Will we give them the ability to respond?
    General Dunford. We will, Chairman.
    Chairman McCain. That means surface-to-air capability?
    General Dunford. It does not mean that, Chairman.
    Chairman McCain. The--well, I guess I have to go back to 
the problem that we face, and that is that, with the cease-fire 
breaking down, with millions of refugees, with 200-and---or at 
least 300,000 people killed, and the resumption of hostilities, 
now with Russian air practicing indiscriminate bombing, what 
are we going to do about that situation? Can we count on a 
couple of thousand American-trained-and-equipped forces to 
reduce or counter what is clearly a consolidation of power on 
the part--in the hands of Bashar Assad? I hate ISIS, but it 
isn't ISIS that's killed 300,000. It isn't ISIS that's driven 
millions into refugee status. It's Bashar Assad. I wonder what 
you believe our options are in this obviously deteriorating 
situation in Syria, which means a resumption of the slaughter, 
a resumption of the flow of refugees.
    Mr. Secretary?
    Secretary Carter. May I start? Then the Chairman could 
chime in behind it.
    We are intent upon fighting ISIL in Syria because our 
principal and paramount responsibility is to protect the 
American people, and ISIL's trying to attack the American 
people. But, I agree with you, also, about the Assad regime. 
It's a reason why Assad can't be part of the future of that 
country, in my judgment, because of what he's done to his 
people.
    The--and I also agree with you that, while the cessation of 
hostilities has had an important effect, particularly--in both 
the north and the south, but very much in the south--in 
permitting humanitarian assistance, it is not being completely 
abided by. That is especially by the Syrian regime.
    Finally, you mentioned Russia. While you're mentioning 
Russia, I'll just remind you of what I said to you before. The 
Russians said they were coming into Syria to fight ISIL. That's 
not what they did. They supported Assad and thereby prolonging 
the Syrian civil war. So, that is a tragic situation, and we--
and Secretary Kerry is trying to work on that. As you know, I 
can't describe here the full extent of our efforts with respect 
to the Assad regime. But, again, I'd just go back to our focus 
in this testimony. Our focus pretty much in the Department of 
Defense, not exclusively, but largely, is on protecting 
America. That means destroying ISIL.
    Chairman McCain. My time has expired. But, obviously, 
according to General Nicholson, the situation in Afghanistan is 
deteriorating. Isn't it imperative that we revisit the decision 
on reducing the number of troops in Afghanistan by half now? 
Shouldn't we do that before these important meetings in June 
and July? I'd--either----
    Secretary Carter. Chairman, we're constantly reevaluating 
the situation in Afghanistan. I think we've----
    Chairman McCain. But, we have to make a decision----
    Secretary Carter. We do. We do. We're constantly making----
    Chairman McCain. Will we be--will the President be making 
that decision?
    Secretary Carter. I think the President will be making 
those--he's indicated, in--a continued willingness to adjust to 
circumstances there and to ensure the success of something 
we've----
    Chairman McCain. But, you agree----
    Secretary Carter.--worked on for a long time.
    Chairman McCain.--it's important our allies know that----
    Secretary Carter. Yes, it is.
    Chairman McCain.--decision before----
    Secretary Carter. I do.
    Chairman McCain. Thank you very much.
    I apologize to the committee for overdoing--staying my 
time.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Again, gentlemen, thank you for your testimony.
    In this very complex region, sometimes we have difficulties 
with our allies as well as our adversaries. Turkey has been 
both a supporter, in allowing us to operate out of Incirlik, 
and also someone who has not been completely cooperative in 
some of our requests.
    Mr. Secretary, you will be seeing them, I presume, in 
Stuttgart. Can you comment on what you would like them to do 
more and whether they are capable or willing to do that?
    Secretary Carter. Thanks. It's a timely question, and a 
very important one, because, by dint of geography, they are the 
single most important in--of the NATO [the North Atlantic 
Treaty Organization] Western family of countries that can have 
an influence on the situation in Syria. They are doing more, 
and I'm grateful for what they are doing. They're doing more 
along the border. They're helping us to operate in some ways I 
can go into in another setting. I'm very grateful for that. I'd 
like them to do more. I've wanted them to do more for some 
time. I think I've made that clear. But, we continue to work 
with them. They're an important party. They're an important 
ally. They can make a larger contribution.
    Senator Reed. Those are--in the spectrum of possible 
operational approaches that you laid out, the one that's being 
adopted now is a rather light footprint, Special Operations 
troops, air going in, trying to degrade both ISIL around Raqqa, 
ISIL around Mosul. A more significant ground presence will 
require, I presume, a adjacent country providing both the 
operational and political support for a staging area. Have you 
any indications of that being accepted, tolerated, or agreed 
to----
    Secretary Carter. Well, Turkey's allowed us to operate out 
of Incirlik. Enormous part of the air campaign. Very grateful. 
So, they are willing to allow us to operate against ISIL.
    With respect to the Special Forces in Syria, I just want to 
distinguish that from the Iraq--if--in the Iraq case, we have 
a--the--there aren't Special Forces. We have thousands of 
Americans that are doing all kinds of things that are 
necessary. There are logistics--because, remember, the--this 
Iraqi Army needs to be rebuilt, it needs to be sustained, it 
needs to have its line of communications sustained as it goes 
up the Tigris River Valley towards Mosul. There's a lot of 
pieces to this. The reason for these--again, without going into 
a lot of detail--for the Special Forces presence in Syria is 
not their numbers, themselves; it's their ability to go in, 
identify groups that are willing to go after ISIL, and then 
bring down in, like, a funnel of a tornado, the great weight of 
the American military power through those forces and amplify, 
enable their effects. That's what they're so good at. That's 
why they're there. That's why we're increasing their numbers.
    Senator Reed. No, I concur, but I--the point would be that 
those types of operations--Special Operations--have been 
supported by adjacent countries. Is there indication they would 
support a large land force mobilizing on their territory and 
going across their territory?
    Secretary Carter. I don't have any indication from the 
Turks that they would do that, no.
    Don't know if the Chairman wants----
    Senator Reed. Let me shift gears.
    Many in the committee have been urging that we take a much 
more proactive cyberpresence in the conflict. That seems to be 
emerging. I'm wondering--both you, Mr. Secretary, and you, 
General Dunford--can comment upon that cyberoperations.
    Secretary Carter. I'd comment very generally on it. I 
asked, with--the Chairman, a number of months ago--Admiral 
Rogers, our CYBERCOM Commander and also the NSA Director--to 
take on the war against ISIL as essentially the first major 
combat operation of CYBERCOM. He has done that. The objectives 
there are to interrupt ISIL command-and-control, interrupt its 
ability to move money around, interrupt its ability to 
tyrannize and control population, interrupt its ability to 
recruit externally. All of that, it does in a cyber-enabled 
way.
    We're talking about cyberoperations in Syria and Iraq. My 
feeling about that was, and is, very direct, which is, you 
know, we're bombing them, and we're going to take out their 
Internet and so forth, as well. In the modern world, that's 
necessary to defeat an enemy, and we've got to use every tool 
that we have. This is the first big test of CYBERCOM. I have 
very high expectations they can be successful.
    Let me ask if the Chairman----
    Senator Reed. Brief comment, General----
    Secretary Carter.--wants to add anything.
    Senator Reed.--please.
    General Dunford. Senator, I think, just to add to what the 
Secretary said, I mean, the overall effect we're trying to 
achieve is virtual isolation. It complements very much our 
physical actions on the ground. The particular focus is 
external operations that might be conducted by ISIL.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe.
    Senator Inhofe. Mr. Secretary, the--this week, we've been 
talking about the 250 troops that are being deployed--
additional troops in Syria and then 217 in Iraq. How many boots 
do we have on the ground now in Syria and Iraq?
    Secretary Carter. In Iraq, the total is around 3500 now. I 
just want to remind you that that's the force management level. 
It's not like----
    Senator Inhofe. Yes, I understand.
    Secretary Carter.--the way we do it everywhere else. The 
Special Operations complement that we're multiplying sixfold is 
from 50 to those 300 in Syria.
    Senator Inhofe. Okay.
    General Dunford, talk a little bit about rules of 
engagement. Because a lot of times they talk about train-and-
equip. We know that train-and-equip would only include 
defensive activity in certain areas. Where are they now on 
that?
    General Dunford. Senator, you talk about our forces on----
    Senator Inhofe. Our forces, yes.
    General Dunford.--our forces on the ground. Number one, 
they're going after ISIL, so that--that's the area. They're 
unrestricted in going after ISIL. That includes our air 
campaign. Then, if they're under attack and there's positive 
identification of an enemy and a hostile intent, they're 
authorized to engage.
    Senator Inhofe. Oh, they are. Okay. That's good.
    Now, the question that I have is--the second question is, 
the--all of the activity--we have, during the course of this 
hearing, not really talked about anything outside of Syria and 
Iraq, when other things are happening right now. The--they're 
talking about, in Reuters yesterday, the Islamic State has 
greatly expanded its control over territories in Libya, 
militants claiming key positions and all of this. Our--Director 
Clapper recently warned that ISIL is spreading in Europe, that 
opens the borders across Europe, they have allowed ISIL to 
plant sleeper cells, and so forth. General Rodriguez, who is 
the Commander of AFRICOM, has said that the ISIL force in 
Africa has grown to 6,000 in the past year, with major presence 
in eastern cities. We talk about eastern cities, we talk about 
Libya, we talk about Tunisia, we talk about Algeria. But, now 
it's gone down further. It's in sub-Sahara Africa. We're 
talking about Somalia, we're talking about Nigeria. I have 
friends who say that even in the Central Africa Republic and 
the Eastern Congo, it's becoming apparent.
    Now, my question is this. When we developed AFRICOM, to 
start with, it was developed without resources. They have to 
get their resources from EUCOM and other sources. That being 
the case, it's--what is happening right now--I think if we say 
that we had a strategy to contain ISIL, that the strategy 
didn't work, that we are not containing ISIL. So, we talk about 
our troops, what they're doing up there in the train-and-equip 
programs, and in Syria and Iraq, but what about these new areas 
that they're going into now? How are we going to be--how are we 
going to be able to resource them, should we have to? What's--
what are your thoughts about that?
    Secretary Carter. I'll give a start, and then Chairman has 
been working on this very much also.
    The--you're absolutely right, we have seen--and I--Director 
Clapper, I'm not familiar with the specific testimony, but I'm 
sure it's absolutely right. You know Africa, of course, 
extremely well, yourself, Senator. There's a mixture of two 
things going on. One is a rebranding of existing extremist 
groups signing up, so to speak, to ISIL, and the other is newly 
inspired or newly funded nucleuses of groups. Both of those are 
of concern. I wouldn't say ``containment,'' I would say 
``destruction'' of ISIL wherever it emerges is the right 
strategy. It can't--and with Syria and Iraq, that's necessary; 
it's not sufficient. We need to do it elsewhere. We are, both 
following those developments really closely and taking some 
action, some of which we can discuss here.
    I'll turn it over to the Chairman at that point.
    General Dunford. Senator----
    Senator Inhofe. Again, before your answer, is Rodriguez 
right when he talks about the number of--the 6,000 number down 
there?
    General Dunford. I agree with that assessment, Senator.
    Senator Inhofe. All right.
    General Dunford. I agree with that assessment.
    Right now, with regard specifically to AFRICOM, AFRICOM's 
conducting operations in West Africa, in East Africa, and in 
Libya. General Rodriguez recently developed a concept of 
operations for support of Libyan forces in the Libyan 
Government. We have, as a result of his concept of operations, 
reallocated resources. The Secretary made that decision about a 
month ago, a month and a half ago, to reallocate resources to 
AFRICOM to further develop the intelligence that we would need 
to support operations in Libya and throughout Africa. We're 
also working closely with the French in West Africa in--with a 
coalition in East Africa.
    Senator Inhofe. Yeah. In sub-Sahara Africa, down there, all 
the activity now in Nigeria, the same thing?
    General Dunford. We also have ISR in that area and are 
working with partners on the ground in that area.
    Senator Inhofe. All right. Thank you.
    Thanks, Mr. Chairman.
    Chairman McCain. Senator Heinrich.
    Senator Heinrich. Thank you, Chairman.
    Secretary Carter, before I get to a couple of different 
questions regarding ISIL, I just want to bring to your 
attention an important issue facing our national security at 
the moment, in terms of the availability of domestic trusted 
supply of state-of-the-art microelectronics for our military's 
weapon systems and platforms. You may be aware there was a 
recent sale of IBM's trusted foundry, which had been DOD's 
sole-source supplier of leading-edge technologies for over a 
decade now, to a company based in Abu Dhabi. I think that 
raises some serious concerns about the future stability of 
DOD's trusted microelectronics source. I think, between defense 
microelectronics activity--at Sandia National Labs, and 
certainly the capable state-of-the-art industry suppliers here 
in the U.S., we ought to be able to fill that void. But, I just 
want to urge you to take a hard look at that and make sure we 
have a long-term strategy.
    Secretary Carter. We--Senator, thank you--we have, and we 
do have a mitigation strategy. I'd be happy to have someone 
come over and discuss it with you. But, it's an important 
point. We need a trusted source of microcircuits, especially 
for, you know, very special and essential functions.
    Senator Heinrich. Exactly. Well, I look forward to that.
    To the issue of the day for both you, Secretary, and 
General Dunford, we all recognize that ISIL continues to be a 
very serious threat, but there have been some positive signs of 
progress since last year. According to media reports, new 
foreign fighters joining ISIL, those numbers are at a 
significantly lower rate this time than they were last year. 
The news reports have suggested that they're on the order of 
something like 200 a month from something close to 2,000 a 
month a year ago. I want to ask you, Are those numbers that we 
see in the media actually accurate? To what do you attribute 
the sharp decline? Whether or not CYBERCOM, which you 
mentioned, is having a role within that, overall, as well.
    Secretary Carter. The--we do observe that trend. I think 
it's very hard to be precise about these numbers, but I think 
that that trend is one the intelligence community does say is 
very discernible. You know, at the same time, from my point 
view, any is too many. So----
    Senator Heinrich. Yes.
    Secretary Carter.--we're not done until there are none. 
But, I--I'm told that that trend is observable in the numbers, 
as well as we're able to discern those numbers.
    Senator Heinrich. General.
    General Dunford. Sir, I would attribute the reduction--and 
I'm with the Secretary, in terms of specific numbers--but, I 
think that reduction is for a couple of reasons. One is, we 
assess that foreign fighters come from about 145 countries, and 
a number of those countries now have come together in a more 
meaningful way to share information and intelligence. It's not 
what we would want it to be, but it's much better than it was a 
year ago. We do have a specific organization that's been 
established to bring those nations together, to exchange 
information, and to be proactive about foreign fighters. Our 
visibility on foreign fighters has increased.
    Secondly, the Turks have been helpful in that regard. I 
think the efforts that they have taken along the border have, 
in fact, reduced the numbers of foreign fighters that flow back 
and forth between Turkey and Syria. But, again, in both areas, 
both with regard to what the Turks are doing and with regard to 
the information and intelligence exchanges that we have, we 
have much more work to do, and we're not satisfied with the 
level, but it has proven to make an impact.
    Senator Heinrich. Well, we appreciate that you don't intend 
to let up until the job is done.
    Have we had a--any success in, sort of, cutting off the 
ability of ISIS to reach right into even suburban communities 
in the United States and create a demand for--you know, I think 
a number of us have had news reports where kids in our own 
communities, teenagers, people in their 20s, suddenly decided 
to buy a ticket and try and get to Syria. How is that process 
going? Are we able to cut off that, sort of, electronic foreign 
fighter source? Are we having an impact in that area, as well?
    Secretary Carter. Our effort in Iraq and Syria is aimed at 
making it more difficult for them to operate out of those 
locations, including by trying to lure Americans into acts of 
violence. I do have to say that the law enforcement community 
and Homeland Security have an enormous effort here, home. I 
don't want to speak for them, but I--they're working extremely 
hard on that. That's not our--in our area of responsibility, 
but it's essential. So, they're--so, they're working, so to 
speak, the other end of the problem.
    Senator Heinrich. Thank you both for----
    Oh, General, did you want to add anything?
    General Dunford. Senator, I was just going to say that one 
thing that's encouraging--there was a recent poll that talked 
about the appeal of ISIL to Islamic youth worldwide, and 
there's been a fair reduction in that. I would attribute that, 
in part, to our success against ISIL. Again, that narrative of 
invincibility has been shattered over the past year. The less 
success they have on the battlefield, the less of an appeal 
there is, the less of the appeal they have to be a global 
caliphate.
    Senator Heinrich. Right.
    Thank you both very much.
    Chairman McCain. Senator Wicker.
    Senator Wicker. Thank you very much, gentlemen.
    General Dunford, as Chairman McCain just pointed out, most 
of the fatalities and civilian casualties in Syria are caused 
by Bashar Assad's barrel bombs and air attacks. Do you agree 
that we have the capability to take out Assad's air force?
    General Dunford. I do, Senator.
    Senator Wicker. Why have we not done so?
    General Dunford. We have not declared war on the Syrian 
regime, Senator.
    Senator Wicker. We--you're not saying it would take a 
congressional declaration of war to take that action. Are you--
--
    General Dunford. I think it would take the President 
directing us to do that, Senator.
    Senator Wicker. Okay. So, the--I wonder why the President 
has not directed us to prevent these civilian fatalities and 
casualties by taking out Assad's air force.
    General Dunford. The task he's given us militarily is 
against ISIL, Senator.
    Senator Wicker. What would be your recommendation in that 
regard?
    General Dunford. Specifically on--as to whether to attack 
the regime----
    Senator Wicker. As to whether we should take out the air 
force that is causing the majority of the civilian fatalities 
and casualties.
    General Dunford. Yeah. Senator, I'd prefer not to give that 
recommendation in public. That's a policy recommendation that, 
if I was going to provide that, I'd provide it to the 
President, in private.
    Senator Wicker. Okay.
    Secretary Carter, you said Assad cannot be part of the 
future. Is that the explicit view of the President of the 
United States?
    Secretary Carter. I--yes, it is. That's why Secretary Kerry 
is working on a political transition to a regime after Assad. 
As the Chairman just indicated, we haven't undertaken to change 
that regime by force now for a number of years. We have not 
made that undertaking. Our focus in Syria, as the Department of 
Defense, is on fighting ISIL because of its threat--direct 
threat to Americans. But, with respect to the tragedy of the 
civil war in Syria, we're working on that political transition, 
but it's a political transition. Our leadership and--I think, 
has indicated it necessarily involves Assad removing himself 
from the scene because of exactly what--everything he's done to 
his people, which you've just cited.
    Senator Wicker. Assad voluntarily removing himself from the 
scene.
    Secretary Carter. No, I think--here's where the Russians 
would do well to make what they do correspond to what they say. 
They--and that is to move the political transition forward, use 
the leverage that they have and that they've gained by 
intervening on Assad's side to end the civil war, and get Assad 
to step aside while keeping some structure to the Syrian 
Government that can then marry up to moderate opposition, whom 
we support, and create a life and a government for the people 
of that shattered country----
    Senator Wicker. Well, we certainly haven't seen that out of 
the Russian leadership.
    Let me just ask. There were reports last December--there 
was an article in Bloomberg saying, ``Obama no longer seems 
sure Assad should go.'' Are you--I think what you're saying is 
that that's not accurate. Let me just make sure. Is the 
President ruling out somehow working with the Assad regime 
against ISIS in the short term?
    Secretary Carter. They haven't--we have not worked with 
them. They've shown no inclination to----
    Senator Wicker. Is there a----
    Secretary Carter.--work with us. We're not planning----
    Senator Wicker.--debate within the administration?
    Secretary Carter. We're not planning to do that.
    Senator Wicker. Is there a debate within the administration 
about that?
    Secretary Carter. I've not heard that idea broached.
    Senator Wicker. Mr. Secretary, a number of European 
parliamentarians I've spoken with in recent months have told 
me, in private, that they wish Europe had worked with us on 
Syria, back in 2013. Frankly, I wish Congress had been more 
resolute in that regard, also, back in 2013. Senator Cotton was 
a voice in the wilderness at that time. But, now that our NATO 
allies in Europe face the chaos of an unprecedented migrant 
influx, do you believe NATO could help in substantive action 
against ISIL? How could they be helpful?
    Secretary Carter. I do believe they could be--I need to say 
``more helpful,'' because the NATO countries, I think without 
exception--we mentioned Turkey already, its important 
contributions--are working, along with us, on the same campaign 
plan. NATO, as NATO, has not been asked yet by the European 
countries. We favor that. There are reasons why NATO, as NATO, 
is more than the sum of the parts. I'm sure you appreciate 
that. So, I think NATO, as NATO, could make a contribution. 
That's being discussed with the Secretary General right now.
    I'll just say, with respect to the refugee crisis, the 
Europeans have--preference has been to use the European Union, 
and not NATO, as their chosen instrument for addressing the 
refugee crisis. That is their choice. They have not asked, in 
the main, for NATO to be a big part of that effort. We did take 
a step to assist, when I was in Brussels a few months ago, to 
bring the Turks, the Greeks, and the Germans together to work 
some naval operations in the Aegean Sea aimed at deterring 
smugglers from using the Aegean to bring people from Turkey to 
Greece. That's had some success. But, the Europeans, in the 
main--this is their choice--have wanted the European Union, not 
NATO, to address the refugee situation.
    Senator Wicker. Thank you.
    Chairman McCain. Senator Gillibrand.
    Excuse me. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Secretary Carter, thank you for being here. Thank you for 
all your hard work.
    Last week, an advocacy group called Protect Our Defenders 
released a disturbing report detailing inaccurate and 
misleading information that was provided by the Department to 
this committee during a hearing in 2013 and in followup letters 
about sexual assault cases civilian prosecutors allegedly 
refused to prosecute and that the chain of command later 
insisted they be tried, as opposed to simply approved on the 
recommendation of military attorneys. The report by Protect Our 
Defenders and a follow-on indepth investigation by the AP 
alleged that the 93 cases the Department highlighted to prove 
the toughness of commanders in handling sexual assault cases 
were inaccurately described.
    I'm obviously very troubled by these allegations that the 
Department, and specifically the military, provided misleading 
information to Congress, with the intent of defeating 
legislation that I and others on this committee introduced to 
address the scourge of sexual assault in the military. These 
reports suggest an effort by the military to undermine this 
committee and Congress's responsibilities to do oversight and 
determine policies. If you looked at this, the testimony that 
was given by Admiral Winnefeld was quite verbatim by several 
Senators. So, when you give testimony, Senators listen to what 
is said, and they will repeat it. So, if you are giving false 
information, then Senators are left repeating false 
information, which is not in the interest of justice or 
legislating. They also throw into question the voracity of 
other testimony given by the military and defense officials in 
front of the committee.
    So, have you looked into these allegations yet? If not, do 
you plan to?
    Secretary Carter. Thank you, Senator.
    Two things about that. The first is, it's absolutely 
essential and--that we give accurate information, because it's 
important that we use accurate information to defeat this 
scourge. I appreciate all that you've done and all your 
leadership in that regard.
    Admiral Winnefeld is an extremely honorable man, and I 
can't imagine that he would ever give information that was not 
accurate and complete, to the best of his knowledge. I have, in 
answer to your question, asked my staff to confirm the numbers 
that he gave, and we will, of course, report that to you.
    [The information referred to follows:]

    review of issues raised by the protect our defenders report and 
    associated press article regarding military sexual assault cases
    On April 18, 2016, Protect Our Defenders, a non-governmental 
organization, released a report entitled, Debunked: Fact-Checking the 
Pentagon's Claims Regarding Military Justice, \1\ which sought to 
analyze data provided by the Services relating to sexual assault cases 
prosecuted in the military justice system but not by civilian 
authorities. The same day, the Associated Press published an article 
that described the report and added anecdotes and quotations about 
specific cases. \2\ Both the report and the article claim the 
Department of Defense misled Congress in 2013 by overstating the number 
of sexual assault cases brought by the military following declination 
of those cases by civilian authorities, overstating the sexual assault 
conviction rate in such cases, and conflating cases declined by 
civilian law enforcement authorities with cases declined by civilian 
prosecutorial authorities.
---------------------------------------------------------------------------
    \1\ Protect Our Defenders, Debunked: Fact-Checking the Pentagon's 
Claims Regarding Military Justice (April 18, 2016), available at http:/
/www.protectourdefenders.com/debunked/ (hereinafter, ``Debunked'').
    \2\ Richard Lardner, Associated Press, Pentagon misled lawmakers on 
military sexual assault cases (April 18, 2016), available at http://
bigstory.ap.org/article/23aed8a571f64a9d9c81271f0 c6ae2fa/pentagon-
misled-lawmakers-military-sexual-assault-cases (hereinafter, the ``AP 
article'').
---------------------------------------------------------------------------
    Both the report and the article claim that misrepresentations of 
sexual assault case data occurred in testimony by and a letter from ADM 
James A. Winnefeld. On July 18, 2013, ADM Winnefeld testified before 
the Senate Armed Services Committee (SASC) regarding his reconfirmation 
as Vice Chairman of the Joint Chiefs of Staff. During this testimony, 
SASC members asked questions about military convening authorities' 
exercise of jurisdiction over sexual assault cases that civilian 
authorities had declined to pursue. In a follow up letter to Chairman 
Levin on July 23, 2013 (``July 23rd letter''), ADM Winnefeld provided 
more information.
    Although it was not the primary topic of his reconfirmation 
hearing, sexual assault prosecutions by the military were the subject 
of intense debate within Congress at the time and in the four months 
prior to ADM Winnefeld's hearing, the Senate Armed Services Committee 
had held two hearings on the matter on March 13, 2013, and June 4, 
2013. After those hearings, Congress passed Title XVII of the National 
Defense Authorization Act (NDAA) for Fiscal Year 2014, Pub. L. No. 113-
66 (2013), which legislated major reforms to the Uniform Code of 
Military Justice for sexual assault allegations. The legislation 
included 16 substantive revisions of the military justice system, 
including enhancing victims' rights and constraining convening 
authorities' power and discretion.
    A review of the material provided to Protect Our Defenders as well 
as the case files underlying that material reflects that many of the 
issues raised in the report and the article are based on a 
misunderstanding of certain statements or how prosecutions are 
conducted under the Uniform Code of Military Justice or a disagreement 
on what constitutes a nonconsensual sexual act. Additionally, the data 
utilized by Protect our Defenders and the Associated Press resulted in 
an incomplete picture of many of the cases which may have had an effect 
on the conclusions drawn by both organizations. \3\
---------------------------------------------------------------------------
    \3\ Protect Our Defenders submitted FOIA requests seeking documents 
pertaining to the testimony of ADM Winnefeld. In response, the Army 
provided all of the documents that had been provided to the Office of 
the Vice Chairman of the Joint Chiefs of Staff in preparation for the 
testimony. The documents included narrative summaries of the cases upon 
which the data relied and associated court-martial documents reflecting 
the charges, findings, and sentence in all completed cases, but did not 
provide full case files. The Marine Corps also provided summaries of 
the cases upon which their data had relied, but did not interpret the 
FOIA request to request full case files, and therefore did not provide 
full case files. The Air Force and Navy did not provide documents 
responsive to the FOIA requests. According to those Services, the Air 
Force did not respond to the FOIA request because of how Protect Our 
Defenders addressed the request, and it was never received by an office 
with FOIA or military justice roles and responsibilities. The Navy's 
response was due to the absence of a system of records responsive to 
the request.
---------------------------------------------------------------------------
    This white paper reviews five key issues raised in the report and 
the article.
                                analysis
Issue #1: ``Deferred'' Versus ``Declined'' Cases
    Protect Our Defenders takes issue with the term ``declination'' to 
describe those cases in which military and not civilian authorities 
ultimately pursued a prosecution of a sexual assault case. While the 
organization's attempt to make a distinction between a ``declination'' 
and a ``deferral'' may have some utility, it is not a distinction that 
is recognized in the military justice system and would be difficult to 
determine consistently, as discussed below.
    In many instances, both civilian and military authorities have 
jurisdiction over offenses committed by uniformed military members. 
When an alleged offense occurs in an area subject to the jurisdiction 
of a State, military and State officials generally must negotiate which 
authority will exercise jurisdiction over the allegation, and the exact 
nature of how this negotiation plays out is dependent upon the 
individuals involved.
    In its report, Protect Our Defenders attempted to distinguish 
between cases where civilian authorities would not (``declined'') bring 
a case in a civilian court, and cases where civilian authorities 
voluntarily allowed (``deferred'') the case to be brought in a military 
court, even if the civilian authorities may have believed they would 
have been able to bring a case. The military has not historically kept 
records attempting to distinguish cases that are ``declined'' or 
``deferred'' in this manner, and based on the data available, it would 
be difficult to make those assessments retroactively. Rather, in the 
military, when a civilian authority does not take a case, it is 
commonly referred to as a ``declination'' or ``civilian declination,'' 
although on occasion, the phrase ``deferred'' and ``declined'' are used 
interchangeably. \4\ This terminology is used regardless of the 
underlying reason for civilian authorities' decision not to pursue a 
case, whether for lack of evidence, a determination that one venue has 
a preferable punishment, the availability of charges, resource 
constraints, or other reasons.
---------------------------------------------------------------------------
    \4\ For example, the Manual of the Judge Advocate General of the 
Navy states: ``When, following referral of a case to a civilian Federal 
investigative agency for investigation, the cognizant U.S. Attorney 
declines prosecution, the investigation normally will be resumed by 
NCIS and the command may then commence court-martial proceedings as 
soon as the circumstances warrant.'' JAGINST 5800.7F, at para. 
0125.c(2) (June 26, 2012). Similarly, the Air Force's Administration of 
Military Justice regulation states: ``If civilian or foreign 
authorities decline or waive the right to exercise jurisdiction, the 
Air Force may proceed with military justice action, whether court-
martial or nonjudicial punishment.'' AFI 51-201, at para. 2.6.2 (July 
30, 2015).
---------------------------------------------------------------------------
    Furthermore, making an accurate distinction between ``deferred'' 
and ``declined'' cases would be difficult even with perfect data. This 
is due to the various factors considered by military and civilian 
authorities in their negotiations as well as the stage in an 
investigation or prosecution at which decisions are made. For example, 
a civilian authority may voluntarily allow the military to take a case 
in an early stage of an investigation, but had the civilian authorities 
pursued the case, they may at a later stage in the prosecution have 
decided not to pursue the case because of evidentiary or other issues 
that arise during an investigation and trial.
    The underlying case files also contain information inconsistent 
with the AP's reporting. For example, the AP article quotes a civilian 
prosecutor who stated that his office would not have declined to 
prosecute the case at issue. The case file includes a letter from an 
assistant district attorney in that prosecutor's office stating that 
the charge in that case ``was declined by our office [a]s a Felony 
offense.'' An investigation report concerning the case states that 
civilian prosecutorial authorities declined the case after the alleged 
offender passed an independent third-party polygraph examination. An 
Army convening authority subsequently referred that case for trial by 
court-martial, at which the accused was convicted of the Article 120 
offense of abusive sexual contact with a child and sentenced to 
confinement for 30 days and a dismissal.
    In another example, the AP article stated that there was 
insufficient information to verify whether a particular case had been 
declined by civilian authorities. The article stated that four civilian 
prosecutors' offices were contacted in the area of the military 
installation, and none had a record of the case. The underlying case 
files include the name of the prosecutor who declined prosecution and 
the date on which that information was orally conveyed to a military 
Special Victim Prosecutor. Following the civilian declination, an Army 
convening authority referred that case for trial by court-martial, 
resulting in a conviction for rape of a child and sodomy with a child 
under the age of 12 and a sentence that included confinement for 35 
years and a dishonorable discharge.
Issue #2: What Constitutes a Sexual Assault Case
    The Protect Our Defenders report adopts a different approach for 
determining what constitutes a ``sexual assault case'' than do the 
Services. This approach seems to have led Protect Our Defenders to 
interpret the same underlying data differently than do the Services.
    Protect Our Defenders notes that some of the sexual assault cases 
summarized by the Services and cited in testimony and the letter ``were 
not prosecuted for sexual assault.'' \5\ However, this assessment 
misses important context of the cases and is not reflective of how 
sexual assault data is collected or how sexual assault cases are tried. 
The Department officially tracks cases involving allegations of sexual 
assault as ``sexual assault cases'' even when the charges filed may be 
for an alternate or collateral offense, as noted most recently the 
Department of Defense Fiscal Year 2015 Annual Report on Sexual Assault 
in the Military. \6\ Because in both the civilian and military justice 
system, a determination must be made on a case-by-case basis as to 
which charges are supported by sufficient evidence, it is possible in 
both systems to bring an array of charges and not solely charges for 
sexual assault. In certain cases, the availability of non-sexual 
assault offenses in the military justice system (such as conduct 
unbecoming of an officer) led to convictions that would not have been 
possible in the civilian criminal justice system. \7\
---------------------------------------------------------------------------
    \5\ ``Debunked'' at 9, see also id. at 10.
    \6\ See Department of Defense Fiscal Year 2015 Annual Report on 
Sexual Assault in the Military (2016), available at http://sapr.mil/
public/docs/reports/FY15--Annual/FY15--Annual--Report--on--Sexual--
Assault--in--the--Military.pdf, at 49 (noting that ``accountability 
actions [were] taken against the 2,013 subjects receiving command 
action this year involved sexual assault offenses'' but that while 
``1,437 subjects received action for a sexual assault offense . . . 
[t]he remaining 576 subjects received action on a non-sexual assault 
offense, such as a false official statement, adultery, or assault.'')
    \7\ As an example of a sexual assault case that did not ultimately 
result in sexual assault convictions for all of the defendants 
involved, the July 23rd letter described one case where two soldiers 
engaged in sexual intercourse with a victim who was substantially 
incapacitated by alcohol. The letter noted that after civilian 
investigators found that there were victim credibility issues, 
``military investigators . . . discovered evidence indicating that the 
soldiers had conspired to obstruct justice.'' While one individual was 
ultimately convicted by court-martial for abusive sexual conduct as 
well as collateral misconduct, the other was convicted only for 
conspiracy to obstruct justice, making a false statement, and absence 
without leave. Although one of the individuals was not convicted of 
sexual assault, the July 23rd letter appropriately used this as an 
example of a ``sexual assault case.''
---------------------------------------------------------------------------
    Protect Our Defenders notes that some of the charges were for 
``indecent acts or possession of child pornography--offenses that, 
while often reprehensible, are not nonconsensual sexual acts.'' This 
description is not an accurate characterization of those types of 
cases, and disregards important charges and tools for military 
prosecutors.
    For example, in one case involving child pornography provided to 
Protect Our Defenders, \8\ the accused servicemember had a sexual 
relationship with a minor under the age of 16, but in the jurisdiction 
where he resided, the sexual relationship was not considered to be 
statutory rape. The individual was found guilty of an attempt to 
possess child pornography, indecent conduct for sending a photo of his 
genitalia to a child under the age of 16, and possession of child 
pornography. While a charge alleging nonconsensual sexual abuse was not 
brought, the underlying sexual acts raise questions about the 
consensual nature of the sexual relationship, given the age of the 
victim and the ability of a minor to consent to sex or to being a 
participant in pornography.
---------------------------------------------------------------------------
    \8\ ``Debunked'' at page B35 (discussing U.S. v. PFC Uribe).
---------------------------------------------------------------------------
    Similarly, prior to changes to the UCMJ in 2012, indecent acts 
charges provided an option for the Government to pursue a sexual 
assault charge where consent of the victim would not have been a 
defense. That is, a charge for indecent acts does not indicate that the 
nature of the act was consensual or non-consensual; instead, it could 
be used to charge a case where proving lack of consent would have been 
difficult.
    With respect to cases relied on in the July 23rd letter, each of 
the 32 completed cases referred to court-martial identified by the Army 
involved underlying allegations of sexual assault in which the accused 
was charged with one or more sexual assault charges, meaning a case 
involving a charge under Article 120, 120b, 125 for forcible sodomy, or 
Article 80 for an attempt to commit such an offense. In the Marine 
Corps cases, 27 of the 28 cases involved a prosecution or investigation 
for one or more sexual assault offenses or allegations of nonconsensual 
sexual conduct. \9\ The final case, which was charged under Article 120 
as a case of sexual misconduct, included an indecent exposure charge 
involving a Marine who was engaging in public masturbation. Although 
not examined in the Protect Our Defenders report, four of the six Navy 
cases involved prosecutions at courts-martial for sexual assault 
offenses. Sexual assault charges were dismissed in the two remaining 
Navy cases after the Article 32 investigating officers recommended 
against referral. As discussed below, because the attorney who selected 
the 10 Air Force cases has died, the Air Force has been unable to 
determine with certainty to which cases the letter refers and cannot 
provide an assessment of them.
---------------------------------------------------------------------------
    \9\ One of the cases involved an allegation that a Marine attempted 
to engage in online sexual conversations with, and sent pornographic 
imagery to, an individual he believed to be a fourteen year old. The 
other 26 involved a prosecution or investigation for one or more sexual 
assault offenses.
---------------------------------------------------------------------------
    Additionally, in both civilian and military judicial systems, 
defendants are often tried for ``collateral misconduct'' charges, such 
as lying to an investigator, in addition to an underlying crime. In 
both the military and civilian systems, it is sometimes difficult to 
obtain a conviction for sexual assault. \10\ It is a common practice 
for prosecutors to attempt to obtain convictions for collateral charges 
as well, which provide additional methods of holding an individual 
responsible for his or her acts in the event of an acquittal for the 
charge of sexual assault.
---------------------------------------------------------------------------
    \10\ See, e.g., Rape, Abuse & Incest National Network, Reporting 
Rates, available at https://www.rainn.org/get-information/statistics/
reporting-rates (last accessed May 19, 2016).
---------------------------------------------------------------------------
    The military justice system has additional collateral misconduct 
charges that would not be available in a civilian criminal justice 
setting, such as conduct unbecoming an officer, adultery, and orders 
violations. The military also has a range of disciplinary and other 
tools available that have no civilian counterpart, such as non-judicial 
punishment and administrative discharges. Accordingly, in sexual 
assault cases, it is common that charges other than, or in addition to, 
a charge specifically for sexual assault may be pursued as a means of 
increasing the likelihood that the accused is ultimately held 
accountable. \11\
---------------------------------------------------------------------------
    \11\ The ``Debunked'' report also states, ``In contrast to claims 
in Adm. Winnefeld's testimony, two cases did not involve a prosecution 
but, instead, discharge in lieu of court-martial.'' ``Debunked'' at 12 
n.7. ADM Winnefeld's July 23rd letter expressly stated that two of the 
accused in Army cases ``were administratively discharged in lieu of 
trial by court-martial under other than honorable conditions.''
---------------------------------------------------------------------------
Issue #3: Conviction Rates for Sexual Assault Cases
    Protect Our Defenders applies different criteria to determine which 
cases to consider in assessing conviction rates than do the Services, 
which resulted in different calculations of conviction rates associated 
with sexual assault cases brought by the military. Following are the 
key differences.
    First, Protect Our Defenders includes in its calculation those 
cases declined by prosecutors but not those cases declined by other law 
enforcement officials. \12\ Because it did not count cases declined by 
other law enforcement officials, the report did not account for at 
least three Marine Corps cases and eight Army cases declined by law 
enforcement. Second, Protect Our Defenders did not count an additional 
nine Army cases because the organization could not determine whether 
the declination was by a prosecutor or law enforcement. In contrast, 
the Services, as reflected in the July 23rd letter, specifically 
included both types of declinations. \13\ Third, Protect Our Defenders 
counts only cases where the actual conviction fell within a narrow 
definition of ``sexual assault offenses'' whereas, as discussed above, 
the Services included all sexual assault cases--that is, all cases 
involving sexual assault allegations even if the charge brought was for 
other violations, such as indecent conduct (which, as explained above, 
is an important tool for the Government to hold individuals accountable 
for nonconsensual sexual conduct). Finally, Protect Our Defenders 
excluded cases it determined were ``deferred'' instead of declined, 
which as discussed above, is a difficult determination to make and the 
organization's assessments in this matter may have been incorrect, 
based on other information contained in the files.
---------------------------------------------------------------------------
    \12\ Protect Our Defenders also criticizes ADM Winnefeld's 
testimony for his failure to distinguish between cases declined by 
civilian prosecutors rather than by civilian law enforcement officials. 
His July 23rd letter accurately stated that ``the Military Services 
have investigated and prosecuted a number of sexual assault cases after 
civilian authorities either did not pursue a full investigation or 
formally declined to prosecute.''
    \13\ One of these cases did not involve a ``declination.'' In that 
case, a civilian prosecution for an alleged sexual assault offense 
resulted in an acquittal. After the acquittal, an Army court-martial 
was brought for that same sexual assault offense, resulting in a 
conviction. (The Army court-martial also involved a second alleged 
sexual assault that resulted in an acquittal.)
---------------------------------------------------------------------------
    The underlying case files support the calculations set forth in the 
July 23rd letter. The July 23rd letter stated that there were 32 
civilian declination cases in the Army referred to court-martial 
resulting in 26 convictions for an 81 percent conviction rate. \14\ The 
case files support the 81 percent conviction rate stated in that letter 
when using the standards that the Department generally uses. The letter 
also stated that the Marine Corps had tried 28 civilian declination 
cases resulting in 16 convictions for a 57 percent conviction rate. At 
the time, the case files contained information that showed that 17 
cases had resulted in a conviction; in addition, one of the 28 case was 
pending court-martial, and subsequently resulted in findings of guilt 
to non-sexual assault offenses. Thus the conviction rate among the 
cases at that time was 17/27, or 63 percent, higher than what the 
letter stated. The Navy statistics referred to in the July 23rd letter 
were correct. One out of three cases that were referred to court-
martial had resulted in a conviction at the time of the letter.
---------------------------------------------------------------------------
    \14\ The report also notes several duplicates from the Army. It is 
unclear why the FOIA included duplicates, but the cases, as provided to 
the Joint Staff from the Army, did not include those duplicates and it 
did not affect the accuracy of the July 23rd letter.
---------------------------------------------------------------------------
    Finally, the July 23rd letter also discussed 10 Air Force cases 
over a two-year period. Because the attorney who selected those cases 
died, the Department has been unable to determine with certainty to 
which Air Force cases the letter refers. \15\ Similar to this data, 
however, is a statement made by Col Don Christensen, \16\ then-Chief of 
the Air Force Government Trial and Appellate Counsel Division, about 
the Air Force's prosecution of 15 sexual assault cases that civilian 
authorities declined to prosecute. As Stars and Stripes reported on 
January 9, 2013, ``the Air Force prosecuted 96 sexual assault cases 
last year, including 15 cases in which civilian jurisdictions where the 
off-base assaults occurred declined the cases as unwinnable. Of those 
15, `so far, we have eight convictions,' Christensen said. `We don't 
shy away from a tough case.''' \17\
---------------------------------------------------------------------------
    \15\ Responding to a request from Senator Gillibrand in the same 
time period, the Air Force provided a non-exhaustive sampling of 10 
cases in which civilian authorities waived jurisdiction to the Air 
Force and the cases were referred to trial by court-martial. In those 
10 cases, eight of the accused were convicted of sexual assault 
offenses; one was convicted of non-sexual assault offenses; and one was 
acquitted, for a 90 percent conviction rate overall and an 80 percent 
conviction rate for sexual assault offenses.
    \16\ Col Christensen is currently President of Protect our 
Defenders as well as the lead author of the ``Debunked'' report.
    \17\ Nancy Montgomery, Stars and Stripes, Air Force Strengthens Sex 
Assault Prosecutions with New Measures (January 9, 2013), available at 
http://www.stripes.com/news/air-force-strengthens-sex-assault-
prosecutions-with-new-measures-1.203291.
---------------------------------------------------------------------------
Issue #4: Role of Commanders and Staff Judge Advocates in Prosecutions
    Protect Our Defenders criticizes the Department for failing ``to 
provide a single example of a commander `insisting' a case be 
prosecuted,'' noting that, ``[c]rucially, the military did not identify 
a single case where a commander sent a case to trial after a military 
prosecutor refused to prosecute.'' \18\ These statements misunderstand 
the process.
---------------------------------------------------------------------------
    \18\ ``Debunked'' at 2.
---------------------------------------------------------------------------
    The commander has the statutory authority and responsibility to 
make the ultimate decision regarding referral of a case to trial, but 
he or she does not make that decision in a vacuum. In the military 
justice system, a convening authority--the commander--may refer a 
charge for trial by a general court-martial only if the staff judge 
advocate concludes that (1) the specification alleges an offense, (2) 
the specification is warranted by the evidence, and (3) a court-martial 
would have jurisdiction over the offense. This conclusion is made in an 
Article 34 advice letter. The staff judge advocate's conclusions as to 
those matters are binding on the convening authority, and a military 
commander would not be able to overrule such a decision. Because it is 
not possible for a convening authority to overrule a staff judge 
advocate's determination that there is not, for example, sufficient 
evidence or jurisdiction, Protect Our Defenders' conclusion that there 
was no instance of a convening authority overruling a military lawyer 
who opposed bringing charges is misleading.
    Of note, in the Article 34 advice letter, a staff judge advocate is 
also required to make a non-binding recommendation as to disposition, 
such as whether the charges should not be referred for trial by court-
martial, even if the evidence is sufficient. The documents Protect Our 
Defenders reviewed did not include these letters.
    Since the National Defense Authorization Act for Fiscal Year 2014 
enacted review procedures for certain non-referral decisions there has 
not been a single instance in which a general court-martial convening 
authority has declined to refer a sexual assault case, as defined in 
Article 120(b) (as well as rape cases charged under Article 120(a) and 
forcible sodomy cases charged under Article 125 and attempts to commit 
any of those offenses charged under Article 80), for trial by court-
martial where the staff judge advocate's article 34 advice letter 
recommended such referral. On the other hand, in some rare instances, 
general court-martial convening authorities have referred cases for 
trial contrary to the article 34 advice letter's recommendation against 
such referral.
Issue #5: Sentencing
    The Protect Our Defenders report states that ``[s]entencing 
decisions were arbitrary and unpredictable, potentially undermining the 
deterrence effect of the military justice system.'' \19\ Disparity in 
sentencing is an issue in both the civilian and military justice 
systems. The Department has acknowledged that there have been cases of 
sentencing disparity in the court-martial system and has offered a 
detailed legislative proposal to address those concerns.
---------------------------------------------------------------------------
    \19\ ``Debunked'' at 4.
---------------------------------------------------------------------------
    On December 28, 2015, the Assistant Secretary of Defense for 
Legislative Affairs transmitted to both the President of the Senate and 
the Speaker of the House the report of the Military Justice Review 
Group (MJRG) \20\ along with the proposed Military Justice Act of 2016, 
which would enact the MJRG's recommendations. One of the major reform 
proposals in the bill was the adoption of judge-alone sentencing 
informed by sentencing parameters and criteria, which would provide 
sentencing guidance to military judges. While the parameters would not 
be binding, a military judge must explain a departure above or below 
the relevant parameter and such departures would be subject to 
appellate review. Unlike the current military justice system--in which 
court-martial members (the equivalent of jurors) also adjudge the 
sentence if they decide guilt or innocence--the Military Justice Act of 
2016 would vest sentencing authority in the military judge in all non-
capital cases.
---------------------------------------------------------------------------
    \20\ Military Justice Review Group, Report of the Military Justice 
Review Group (December 22, 2015), available at http://www.dod.gov/
dodgc/images/report--part1.pdf (hereinafter ``MJRG Report'').
---------------------------------------------------------------------------
    The MJRG explained that these proposals were designed to ``limit 
inappropriate disparity'' in court-martial sentences while 
``maintain[ing] individualized sentencing and judicial discretion in 
sentencing.'' \21\ Section 801 of the Military Justice Act of 2016 as 
proposed by DOD would accomplish this goal.
---------------------------------------------------------------------------
    \21\ MJRG Report at 32.

    Secretary Carter. If I can just say, on a somewhat 
different note, but since you raised it, it is Sexual Assault 
Prevention and Response Month. Later this afternoon, I will be 
recognizing six tremendous sexual response--assault response 
coordinators from around the country at our bases here. I just 
wanted to put in a word for them, because they're super. You 
had something to do with creating that role, and I appreciate 
it.
    But, I have asked my staff to confirm those numbers, and 
it's very important that we do so.
    Senator Gillibrand. So, it's more than just numbers to be 
aware; it's about the characterization of what happened.
    Secretary Carter. Under---yes, exactly.
    Senator Gillibrand. What the AP did so effectively is, when 
the military said these cases were declined by local DAs and 
weren't going to be prosecuted, and because commanders insisted 
that they be done, that they were done. What the AP uncovered 
by talking to these local DAs, one at Fort Drum, in fact, that 
was not the case; she did not decline to prosecute, and said 
she wouldn't have, but that it was done collaboratively so that 
they felt the best way was for the military to proceed.
    So, it's not about numbers. It's about how what happened 
was characterized. I also share your faith in Admiral 
Winnefeld, but I would like to know, Are you going to 
investigate who gave him those numbers, how those numbers were 
compiled, how they were characterized, how they were given him 
in report form, and who wrote those reports and provided that?
    Secretary Carter. You're--yes, we will confirm or not 
confirm those facts. You're right, it's not just the number; 
it's the characterization of each case. I have asked my staff 
to look into those numbers. It's important that we get it 
right. You're absolutely correct.
    Senator Gillibrand. What do you think is the line that the 
Department and military should draw when it comes to lobbying 
for or against legislation?
    Secretary Carter. Our job is not to lobby. I think we're 
here to try to tell you the truth about what we're doing, to 
the best of our ability, and to explain the choices that are 
before the country, the resources that will be needed for 
things, and our efforts. ``Lobby'' is not a word I'd like to 
use with respect to our responsibilities. I think our 
responsibilities are to report to our overseers the truth, as 
best we understand it.
    Senator Gillibrand. When can I expect your investigation of 
this issue to be complete?
    Secretary Carter. Just as soon as it's complete. I promise 
you.
    Senator Gillibrand. Okay. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Senator Reed [presiding]. On behalf of Chairman McCain, 
Senator Fischer, please.
    Senator Fischer. Thank you, Mr. Chairman.
    Mr. Secretary, what is the political end state that our 
military efforts in Syria are trying to achieve?
    Secretary Carter. Our military efforts in Syria are 
intended to defeat ISIL and regain, for local forces, the 
territory now being tyrannized by ISIL and being used by it as 
a platform to attack America. We also have a----
    Senator Fischer. For a--so our military efforts, though, 
are focused entirely on ISIL, not the chaos that is happening--
--
    Secretary Carter. That's correct. We----
    Senator Fischer.--in the entire country?
    Secretary Carter.--have another effort, which Secretary 
Kerry could speak to, aimed at the political transition, as we 
were discussing earlier.
    Senator Fischer. Do you believe that the efforts on the 
ground are favorable to this solution that we're going to have?
    Secretary Carter. They have had results, so far, in the 
taking of, as I mentioned earlier, Tishrin Dam, Shadadi. There 
are some other operations afoot, I can't speak of here. Then, 
ultimately, the purpose--and this is the reason why we're--and 
the President has given us authority to increase our numbers 
there. Our objective, of course, is to collapse ISIL's control 
over Raqqa.
    Senator Fischer. I assume you're referring to the 
deployment of another 250----
    Secretary Carter. Correct.
    Senator Fischer.--soldiers to help contribute to that goal? 
Is that----
    Secretary Carter. That's correct.
    Senator Fischer.--correct?
    If we have as an immediate objective to recapture Raqqa--am 
I correct in stating that?
    Secretary Carter. Yes.
    Senator Fischer. Do you believe that the deployment of 
these 250 soldiers will specifically connect us to that goal, 
then?
    Secretary Carter. Let me talk to their purpose and then ask 
the Chairman to pitch in, as well, Senator. But, that is 
precisely the reason why we're introducing those forces and--to 
identify and then enable forces that are local to the region 
and who want to expel ISIL from that territory, including 
Raqqa. Along the lines of what we've seen in Shadadi, with the 
Syrian Arab Coalition, which, enabled by us, expelled ISIL from 
that important town, we'd like to do that with Raqqa, as well.
    Chairman, do you want to add anything to that?
    Senator Fischer. If I can just clarify a point. When you're 
talking about local forces, are you talking about Sunni forces 
in the area?
    Secretary Carter. Yes. Arab forces, in the main. They're 
the ones who live there and--in that area.
    Senator Fischer. Either you, Mr. Secretary, or General, how 
many Sunni forces do you believe are going to be required for 
this operation to be successful and for us to reach this goal?
    General Dunford. Senator, just--I just want to wrap back on 
the purpose of the Special Operations Forces, the increased 
United States forces on the ground in Syria. It's to do two 
things. To your original question, it's to grow the size of our 
partners on the ground and to increase their effectiveness. We 
assess, right now, that there are about 6,000 Syrian Arab 
Coalition members. We perhaps have as many as twice that number 
that are currently in the vetting process as a result of our 
forces on the ground, and we expect those numbers to increase.
    With regard to forces that are going to attack Raqqa, we 
think that'll be a combination of both Syrian Arab Coalition 
members, but supported also by the Kurdish forces that we have 
been supporting here over the past year. Those numbers are 
almost 30,000 Kurdish forces there. So, a combination of those 
forces, plus the support that we provide from the coalition, 
will be required for Raqqa.
    Senator Fischer. Going past just the numbers of the boots 
on the ground that are needed, are there, obviously, other 
capabilities that are going to be required for these forces to 
have? For example, what kind of equipment do they need? Are 
there any leadership or chain-of-command issues that you 
believe need to be resolved before this will be effective?
    General Dunford. Senator, the answer is yes. There are 
issues. We're doing several things. One is, we're assisting 
them in the planning effort. We're providing logistical 
support, which includes ammunition, and, in some select groups, 
with the authorities we have in the NDAA, that's specific 
equipment, weapons, vehicles, communications equipment, and so 
forth, as well as training. Those are the four main areas that 
will be required for them to be successful.
    Senator Fischer. Are there leadership concerns, chain-of-
command concerns within these forces, especially when we have 
our troops embedded with them?
    General Dunford. We have--you know, that's been the purpose 
of the last few months, and that's why we felt confident 
increasing the numbers of U.S. forces there, because we believe 
the force-protection concerns have been mitigated. We think the 
relationship that we have with these forces is sufficient for 
us to put additional forces there.
    Senator Fischer. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you.
    On behalf of the--Chairman McCain, let me recognize Senator 
Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    I'm going to yield my time to Mr. Manchin, who has a 
pressing engagement.
    Senator Manchin. Thank you, Senator Donnelly. I appreciate 
that very much.
    Thank all of you for your service.
    I'd like to direct this, first of all, to General Dunford. 
General Dunford, as both of you are aware, the Defense 
Department is forced to make hard choices in today's budget 
constraints. We understand that, too. Recently, it was 
announced that we're spending--we are sending 250 of our 
Special Operation operators into Syria, and it costs 
approximately, I understand, 1 to 1-and-a-half million dollars 
to train one special operator, equaling to roughly 375 million 
to train those 250.
    On Tuesday, this committee held a hearing to discuss the F-
35 program, which is still estimating the cost of about 108 
million per unit. On Tuesday, I asked General Bogdan if he 
thinks we're spending our money wisely with the F-135s? I 
understand we've--we're on track to purchase 2443 aircraft. 
Knowing the type of fight that we're expecting you to fight 
right now, and to defend our country, conceptually if we traded 
10--just 10--F-35s, we could increase the size of our Special 
Operation Forces by over 700. In the world that you see today, 
and--are we--I guess, are we concerned that we're sacrificing 
short-term needs for our long-term security strategy? Would 10 
less F-35s make that much of a difference down the road as it 
would make a difference today with the 700 troops on the 
ground?
    General Dunford. Senator, I think you bring up, really, the 
important issue we struggled with as we put the FY17 budget 
together, and that is that we do confront a wide range of 
challenges, from Russia, Iran, North Korea, China, as well as 
violent extremism. In fact, the kind of choices that you just 
outlined are exactly the choices we made. We did, in fact, 
reduce the numbers of F-35s this year to balance in other 
area--other capability areas to make sure that, with the money 
that we had, the top line that we had, that we did the very 
best we could to make sure we are postured to deal with all of 
those challenges.
    So, we've done exactly as you've outlined, sir.
    Senator Manchin. But, I'm saying--I would--guess I would 
ask, then--I talked to General Milley, when he was here, and 
asked him, basically, on troop strengths, Mr. Secretary--I 
think we're scheduled to go to 980, correct? 980,000?
    Secretary Carter. Yes. In the Army Active and Reserve 
component, total.
    Senator Manchin. Right. I asked him, point blank, What does 
it take to defend the threats that we have? He didn't hesitate. 
He said ``one-two.'' That's 220,000 troops short. I don't want 
to go back home to West Virginia and tell the people we just--
we're a little bit short on this one. So, we're looking at 
ways, knowing that we're working under constraints--that's what 
we're asking for, some direction, here, that gives you the job 
to do--the wherewithal to do the best job that you have to do.
    Secretary Carter. A couple of things.
    Senator Manchin. Do you concur--would you concur----
    Secretary Carter. I'll----
    Senator Manchin. Do you concur----
    Secretary Carter. I'll----
    Senator Manchin.--with the figure----
    Secretary Carter. I'll----
    Senator Manchin.--of 220,000 short?
    Secretary Carter. No. Our number is 980,000. That's the 
end-strength number that we and the Army are aiming for. That's 
450,000 Active component----
    Senator Manchin. I know what you're aiming at, sir. I'm 
sorry. But, I'm asking, What does it take to do the job? The 
General----
    Secretary Carter. That----
    Senator Manchin.--the General believes it's 1.2.
    Secretary Carter. That is the number that we're shooting 
at; namely, 980,000 is the number----
    Senator Manchin. So, you all disagree.
    Secretary Carter.--that we think----
    Senator Manchin. You and the General----
    Secretary Carter.--is----
    Senator Manchin.--are in disagreement on this.
    Secretary Carter.--is adequate. No, I think General 
Milley--General Milley's and the Army's Acting Secretary of the 
Army's priorities are, in fact, readiness. That is the 
principal thing that General Milley and I and General Dunford 
have focused on in the Army, more than end strength, where 
we're adding resources this year, is to full-spectrum training 
and bringing the total Army back to levels of readiness that 
are necessary.
    If I can loop back to your Special Forces point, also, 
Senator, we have a lot more than 300 Special Forces. It's not 
like we have to ``make'' these people. We're sending them 
there. We have tens of thousands of Special Forces. Excellent 
people. Yes, exquisitely trained people. But, it's not like we 
don't have them to apply to Syria. We're applying them in the 
number and the manner that makes sense at this moment.
    Let me ask if the Chairman wants to add anything on either 
of those questions.
    General Dunford. Senator, the only thing I'd say is that 
right now, at least in this budget year, I was a lot more 
concerned with the capability of the force than I was the 
capacity. In other words, I wasn't satisfied that, with the 
force structure that we currently have, we had sufficient 
training and equipment. That was the priority this year, was to 
focus on the capability of the forces that we have, as opposed 
to the force structure.
    Senator Manchin. I'm just--I'm concerned that, basically, 
there's--and the way you're explaining it, sir--I understand 
where you're coming from. It just doesn't make sense, from my 
way of trying to analyze this, because General Milley was very 
clear. He didn't hesitate. Because I asked him what it would 
take for us to be able to defend this great Nation and face the 
imminent threats that we had, and he felt we were woefully 
short at 980,000 of end strength. He truly did. So, if there's 
a difference here, maybe we can talk in a more secure briefing 
on this to make sure----
    Secretary Carter. We can, but you're thinking--absolutely 
right, this is a question of balancing investments in force 
structure, readiness, modernization, as the Chairman said, and 
that's a balance that we all struck, including General Milley 
and the leadership of the Army. So--and I'd just repeat that 
the principal strategic issue that we are trying to address in 
the Army budget is less--not force structure, it is readiness. 
That's----
    Senator Manchin. Well, I----
    Secretary Carter.--General Milley's and my principal 
concern in the Army. I know he testified to that----
    Senator Manchin. My time is expired. But, I would just say 
that, basically, the dysfunction that we have, and the 
political discourse that we have here in this body in--and all 
on top of Capitol Hill here, shows you that we must come 
together for the sake of our country and put our country first 
in the defense of this country versus our politics. This is a 
shame that we don't get a good budget that doesn't have to make 
these difficult choices. It's really a shame. I'm sorry for 
that.
    Secretary Carter. Amen to that. Thank you.
    Chairman McCain [presiding]. Senator Cotton.
    Senator Cotton. Thank you, gentlemen, for your appearance 
before the committee.
    Secretary Carter, I want to talk about how our counter-ISIS 
policy has been made. I want to start, though, in the South 
China Sea before we move on to that policymaking process.
    You just returned from a trip to the Philippines, where you 
announced several new initiatives. Unfortunately, we've also 
seen reports that China has begun some reclamation activities 
on the Scarborough Shoal, which is 120 miles west of Subic Bay. 
Is it the case that, if China were to both reclaim and 
militarize Scarborough Shoal, they could overwatch all flights 
out of northern Philippines with radar systems and hold Subic 
Bay, Luzon Strait, and Manila Bay at risk with missile systems 
on Scarborough Shoal?
    Secretary Carter. Well, it's precisely because of those 
kinds of concerns that I was working with the Philippines. 
They're a treaty ally. We take that seriously. Very seriously. 
That's why we are establishing some new installations from 
which we can operate, so that we strengthen our own posture 
there, and then that's why we're doing the rebalance, in 
general, which is not just working with the increasing number 
of allies and partners who are coming to us, saying, ``We're 
concerned about China.'' So, we're getting more and more of 
that, including places like Vietnam. But, it's also why we're 
sending our best equipment to the Asia-Pacific, why we're doing 
more----
    Senator Cotton. I understand, Mr. Secretary. It's also why, 
last week, I gather there were at least three flights conducted 
in the vicinity of Scarborough Shoal by U.S. aircraft?
    Secretary Carter. I'd rather--I could--I'd prefer to 
discuss that--have you briefed in that in--privately, Senator, 
if you don't mind.
    Senator Cotton. Media reports----
    Secretary Carter. But, there's no question about it, we 
will continue to, as I say, ``fly, sail, and operate wherever 
international law permits.'' We do that around the world. We're 
not going to stop.
    Senator Cotton. Media reports indicate that those flights 
did occur, but they did not occur within 12 miles of that 
feature, which would have been a more assertive action in 
contesting China's claims. Now I want to leave the South China 
Sea, but ascend to this point about the policymaking process.
    Chairman McCain. Could I interrupt the Senator a second?
    This is the second time, Secretary Carter, that you've 
refused to confirm what is well known in the media. That's not 
fair to this committee. It's all been reported. There were 
flights into the area around those islands. Why you would 
refuse to confirm that, when it's already been in the media, 
is, I think, not the proper deference that this committee is 
owed.
    Secretary Carter. I'm only refusing because I believe it's 
classified information, Senator. But, I don't--I believe it is.
    Senator Cotton. Actually, I'm glad this--I'm glad the 
Chairman pointed it out. But, I--I think it raises the point 
that I want to go on to now, from your two predecessors, 
Secretary Gates and Secretary Panetta, about the nature of 
national security decisionmaking policy.
    Secretary Gates recently said that Obama's foreign policy 
is, quote, ``not as bad as it sounds. It's the way it comes out 
that diminishes its effectiveness. The way things get done 
communicates reluctance to assert American power. They often 
end up in the right place, but a day late and a dollar short. 
The decisions are made seriatim. It presents an image that 
President Obama is being dragged, kicking and screaming, to 
each new stage. It dilutes the implementation of what he's 
done. It becomes so incremental that the message is lost. It 
makes them look reluctant,'' end quote.
    Secretary Panetta, quote, ``I think what I've seen in the 
last 4 years is almost his cautiousness and overcorrection, 
which makes it appear that the United States is hesitant to 
take action. That sends, I think, a message of weakness,'' end 
quote.
    So, both in our actions in the South China Sea, where we 
may or may not be flying these missions, where we may or may 
not be going inside the protected 12 mile of territorial ring, 
but also in the most recent announcement that we're going to 
deploy troops to Syria, but only 250 troops, what would you 
comment on Secretary Panetta and Secretary Gates' position 
about how this policy is being made?
    Secretary Carter. I can't, obviously, speak for them or for 
the time that they were Secretary. I can only speak my--from my 
own experience. I'll ask the Chairman to do the same.
    I am forthright, as I told you I would be when you 
confirmed me as Secretary of Defense, in giving the President 
my best advice. I'm also absolutely committed to making sure he 
gets professional military advice. That's where the Chairman 
comes in. I've never failed to have a hearing for my views. You 
asked--and I can--you raised one particular, which I already 
addressed in my hearing, the additional SOF in Syria, their 
numbers and their mission was precisely what the Chairman and I 
recommended. What we announced last week was precisely what the 
Chairman and I recommended. What he approved in--last fall, 
the--what we called the ``accelerants'' of that time, was what 
the Chairman and I recommended to him. Now, that doesn't mean 
he's always going to approve our recommendations. I'm just 
giving you those as examples. He is the Commander in Chief. 
But, we tell it straight, to the best of our ability. I can 
certainly speak for myself, but I, in observation, can speak 
for the Chairman, as well. I obviously can't speak for my 
distinguished predecessors and the experience that they might--
--
    Senator Cotton. Well, and I will address one final question 
of General Dunford, here, which, again, goes back to Secretary 
Gates' and Secretary Panetta's comments. They both attribute 
this grudging, halting, hesitating exercise of American power 
to the large size of the President's national security staff 
and the micromanagement, Secretary Gates saying, for example, 
``It was the operational micromanagement that drove me nuts, of 
the White House and NSC staffers calling senior commanders out 
in the field and asking them questions, of second-guessing 
commanders.''
    General Dunford, could you comment on your experience, both 
in your current role and in previous roles, about your 
relationship with the national security staff?
    General Dunford. Senator, I guess what I'd focus on is my 
relationship and access to the President. In both my previous 
role and this role, I have had the opportunity to provide best 
military advice.
    With regard to the national security staff, I didn't deal 
with the national security staff in my previous assignment and, 
in fact, was specifically proscribed from doing that by the 
Secretary of Defense, which I think was appropriate. I don't 
think I should have been dealing with the national security 
staff in my previous assignment.
    In my current role, I don't deal with the national security 
staff, excerpt the National Security Advisor and the Principal 
Deputy National Security Advisors on a routine basis. My access 
is unfettered in that regard. I don't go through the national 
security staff.
    Senator Cotton. Thank you.
    Chairman McCain. I don't want to belabor the point, Mr. 
Secretary, but to classify the fact that we are sending our 
ships and airplanes into international waters, and have that 
classified, when it should be magnified throughout the world 
that the United States is asserting our respect and adherence 
to international law, is something that is confusing and 
befuddling. Why would we want to classify the fact that we are 
doing what every nation in the world should be able to do? 
That's sail or fly wherever we want to. Why should that be 
classified information?
    Secretary Carter. It's--the--it's a fair point, and you--
I'll look into why--what aspects of these operations are 
classified. I'm just respectful of the process. So, I'm not 
going to talk about the details of operations. But, I--there's 
no question that we--and I've said it a--many, many times; I 
say it again today--we fly, sail, and operate wherever 
international law permits. We exercise that right routinely. 
The operational details of a particular flight, it's a fair 
question why--or what parts of it are classified. I'll go back 
and look into it. But, I--I'm careful about disclosing 
classified information or information I believe is classified, 
not to this committee, because you all have access to it in the 
right setting, but not this setting. The fact that something's 
in the newspaper doesn't make it unclassified, as we all know.
    Chairman McCain. Obviously, we don't agree.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    For just a few minutes, Mr. Secretary, I want to look a 
little bit beyond Iraq and Syria and discuss our plan to fight 
the threats of extremism globally. When we've asked you and 
other witnesses to talk about our strategy against ISIS, we 
often get a response detailing the nine lines of effort that 
have been outlined by the President. Is it your understanding 
that those nine lines of effort comprise the strategy to defeat 
ISIS? Is it solely to ISIS, or is that our strategy for the 
global efforts against terrorism?
    Secretary Carter. Well, there's a lot of good sense to the 
line--nine-lines formulation that was first made 2 years ago. I 
would say that, while they're all still valid--they basically, 
name the parts of the campaign--political, economic, military--
that need to be taken--I would also say, we've moved beyond 
that conceptual framework now and have a more operational 
framework, the one it--that, in Syria and Iraq, I've described.
    But, it still remains true. If you go back to the nine 
lines of effort, there are things like interrupting ISIL's 
finances; we're still doing that, working with people to do 
that. It's not the Department of Defense, but the Department of 
Treasury, Department of State, and so forth. The foreign 
fighter flows, we have a role in that, but a lot of other 
countries and other parts of our Government have a role. So, 
it's still a good taxonomy of the total number of efforts. But, 
I would say we've moved beyond that in specificity in a good--
in the last couple of years.
    Senator Donnelly. Is that the primary framework for the 
rest of the global fight against terrorism? Those nine lines?
    Secretary Carter. Again, I--that's a good, broad framework, 
but it--at--we've gotten much more operational in our approach, 
including in individual locations, in addition to Syria----
    Senator Donnelly. Okay. Let----
    Secretary Carter.--and Iraq.
    Senator Donnelly. Let me ask you some information that just 
came out today. So, you know, what you're not familiar with, 
that's okay. It was reported that the truce with the Russians 
is on the verge of collapse. Senior administration officials 
quoted that no clear path ahead in Syria. The situation on the 
ground is murky. We saw that there have just been airstrikes in 
Aleppo that destroyed a hospital, killing at least 14 patients 
and staff. We know the Syrian Air Force and the Russians have 
stepped up raids in that area against the rebel factions. They 
talked about catastrophic deterioration in Aleppo in the last 
few days. It seems we're further away from a workable plan in 
Syria than in a very long time. Exactly what are we going to do 
to try to move this forward? It appears it's heading in the 
other direction.
    Secretary Carter. I--that is precisely what Secretary Kerry 
is working on and discussing with all the parties. I can't 
speak to overnight developments. But, he is both working on the 
cessation of hostilities, itself, and, most importantly--and to 
get back to what we were discussing earlier--on the political 
resolution of the Syrian civil war. I'll leave it to him to 
comment on that.
    Senator Donnelly. Well, let me--I was in Iraq about a month 
ago, right before Hit was taken. We were working with the Sunni 
tribal leaders there. Do you see that continuing to move in the 
right direction? Are we leaving people behind? One of their 
concerns was the governance in those towns, once they took them 
back----
    Secretary Carter. A very good question, and it is very 
important that the stabilization take place after the recapture 
of these cities. That's been going on in Ramadi. I'll ask the 
Chairman if he wants to add more to that. Resettling people, 
getting the water back on, getting the power back on, getting 
schools back open, clearing the IEDs, which these, really, evil 
ISIL people wire in people's homes and so forth, when they come 
back, takes a long time to clear--that's essential. That's go--
that--we've worked on that in Ramadi. We've worked on that in 
Hit. When I was talking about the necessary political and 
economic complements--and to get back to your nine lines of 
effort--we can do all we're doing, militarily, and I'm 
confident that we're on the right track there, but that victory 
can't be sustained unless the local people have the wherewithal 
to resettle. With the political situation in Iraq and as the--
and the economic situation, owing particularly to oil prices, 
that's----
    Senator Donnelly. I'm about out of time, but I just want to 
mention again that, in Syria, you know, as we're trying to move 
ISIS out of Raqqa, trying to accomplish that at the same time 
that Aleppo seems to be going into deeper problems, greater 
flames, more trouble, that whatever Secretary Kerry is working 
on, the stage actually seems to be getting--heading in the 
other direction instead of moving forward.
    Then, just finally, as an aside, we still hope you can make 
it to Crane. We know how busy you are. But, in Syria, most 
recent developments seem to be heading more against our goals 
than for our goals.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Sullivan.
    Senator Sullivan. Thanks, Mr. Chairman.
    I want to begin with a compliment, Mr. Secretary, to you 
and the President for the quality of the generals that you are 
nominating and asking to lead our military. Many have come to 
this--they've all come to this committee and are very 
impressive.
    General Dunford, on March 19th, there was a Marine Corps 
staff sergeant, part of BLT26 artillery--marine who was killed 
in Iraq. Was he killed in action, killed in combat?
    General Dunford. He was killed in combat, Senator.
    Senator Sullivan. We had a--in January, a staff sergeant 
from the 19th Special Forces group was killed in Afghanistan. 
Was he killed in combat?
    General Dunford. Master Sergeant Wheeler was killed in 
combat, Senator.
    Senator Sullivan. When our JSOC [Joint Special Operations 
Command] troops conduct CT [Counter-Terrorism] missions in that 
part of the world, are they conducting combat operations?
    General Dunford. They are, Senator.
    Senator Sullivan. How about when our F-22s, F-16s, A-10s 
are doing bombing missions in Iraq and Syria? Are they 
conducting combat missions?
    General Dunford. They are, Senator.
    Senator Sullivan. So, Mr. Secretary, my question is pretty 
simple. It's--the President, the White House spokesman, even 
just this past week, whenever they talk about our troops in the 
Middle East, they go to great lengths--and this is a quote from 
the President, ``They will not involve American combat troops 
fighting on foreign soil.'' This is the White House spokesman 
recently, ``Our troops are not in a combat role.''
    Why does the administration go through these crazy 
somersaults, that the entire country knows is not correct, to 
say our troops are not in combat, when they're in combat? The 
Chairman of the Joint Chiefs just stated that pretty much 
everybody in the Middle East is in combat. So, why does the 
President not level with the American people? Why does the 
White House spokesman continually just say they're not in 
combat? I think one thing--I would like you to answer that 
question, but I also think it diminishes the sacrifice of our 
troops and their families to--you know, we know they're in 
combat. Why can't we level with the American people and say 
they're in combat? Chairman just did.
    Secretary Carter. Yeah. I'm going to associate myself with 
the Chairman, that these people are in combat, Senator. I think 
that we need to say that clearly. I can't--I don't know what 
statements you're quoting, but I can well imagine that the 
point being made is to describe the strategy that I described--
--
    Senator Sullivan. Well, I think that----
    Secretary Carter.--earlier, which is to--not to try to 
substitute for local forces, but, to get back to Senator 
Donnelly's point, to try to get them powerful enough that they 
can expel ISIL, with our support. When we provide that support, 
we put people in harm's way, we ask them to conduct combat 
actions. I mean, a pilot flying over----
    Senator Sullivan. Dropping bombs.
    Secretary Carter.--Iraq, dropping bombs, is certainly in 
that circumstance.
    Senator Sullivan. Well, I think it would be----
    Secretary Carter. I think that's what's being gotten at, 
but I----
    Senator Sullivan. I think it be useful to maybe pass on, 
from, you know, your two perspectives, to the White House, to 
the President, to his spokespeople, to the people who 
background the press. I mean, even last week, 250 new Special 
Forces troops going to the Middle East, but they're not in 
combat roles. Well, that's actually not true. I think leveling 
with this committee, leveling with the American people is very 
useful. I know the two of you are doing that. But, if you can 
pass that message on to the President and his spokespeople in 
the White House, I think that would be useful.
    I want to turn to a followup----
    Secretary Carter. Can I thank you, by the way, for what 
you've said about the----
    Senator Sullivan. Well, it's true.
    Secretary Carter.--unbelievable officers that we----
    Senator Sullivan. It's not just----
    Secretary Carter.--have. It's----
    Senator Sullivan.--General Dunford. It's----
    Secretary Carter. It's----
    Senator Sullivan.--General Milley, it's the whole----
    Secretary Carter. It's a whole bunch of them.
    Senator Sullivan. Impressive.
    Secretary Carter. We're--country is blessed.
    Senator Sullivan. I'd like to turn to--follow up on Senator 
Cotton's line of questionings. I'm going to hand out a 
document, here, that shows a little bit more detail what's 
going on in the South China Sea, as you're well aware, Mr. 
Secretary, Mr. Chairman. But, there's a lot of concern that the 
Scarborough Shoal has very important strategic significance 
with regard to what some people are calling a ``strategic 
triangle'' in the South China Sea. The Chinese have already 
established two legs of that triangle. The fighters and radars 
are part of that radius that you see around the Scarborough 
Shore--Shoal. What is the strategic significance if the Chinese 
do start to build up the military capability on that island, 
particularly being so close to the Philippines? What are our 
plans if they do begin that kind of militarization or even 
buildup of the island? Do we have a plan to respond to the U.N. 
tribunal ruling that's expected in June with regard to China's 
excessive maritime claims? There's a lot going on there, and 
I'd appreciate just an answer to those questions.
    Secretary Carter. Sure. There is. I should say, also, thank 
you for your role and leadership in this part of the world. 
It's a critical one. You know, the Middle East is the headlines 
all the time, and justifiably so, but this is the region where 
half of humankind lives, and half of the world's economy, so 
it's critical.
    Your map's absolutely accurate. To get to your various 
questions, the United States is reacting. That's what our 
rebalance is all about. There are many things that we work with 
China on, but there are certain aspects of Chinese behavior 
that are very disturbing to us. They're deeply disturbing to 
countries in the region, which has them all coming to us and is 
having the effect of causing self-isolation by China. We are 
reacting, ourselves, and we are being increasingly invited to 
work with countries, longstanding allies, and strong allies, 
like the Philippines--and that's where the sites you see, and 
correctly have on the map here, come in--but also new partners, 
like Vietnam. I was in India a week and a half ago. Many of 
them concerned about Chinese behavior.
    I'll just, finally----
    Senator Sullivan. Well, Mr. Secretary, just--I'm sorry to 
cut you off, here, but----
    Secretary Carter. No.
    Senator Sullivan.--but the strategic significance of the 
Scarborough Shoal right now in the South China Sea. There's a 
lot going on there. You were just there. Can you comment on 
that?
    Secretary Carter. Well, it's a piece of disputed territory 
that, like other disputes in that region, has the potential to 
lead to military conflict. That's particularly concerning to 
us, given its proximity to the Philippines. But, we have the 
same view about all these disputes. By the way, even though 
China is, by far and away, in the recent times, the greatest 
reclaimer and militarization of disputed features, other 
countries are doing it, as well. I'm just--I--I'm not--I don't 
represent our diplomatic position, but our diplomatic position, 
to get back to what you said about the tribunal, is that these 
disputes ought to be settled peacefully. One of the ways of 
doing that is through the tribunal.
    Senator Sullivan. Thank you, Mr. Chairman.
    Chairman McCain. You would support lifting restrictions on 
provision of weapons to the Vietnamese?
    Secretary Carter. We've discussed this in the past, and I 
appreciate your leadership in that regard, Chairman. Yes.
    Chairman McCain. Senator Donnelly. Oh, I'm sorry.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    The funding for United States Forces Korea and the 
rebalance to the Pacific is in the base budget?
    Secretary Carter. It is.
    Senator McCaskill. I support the European Reassurance 
Initiative. I was just there and talked to the--to many of the 
important military commanders in European Command--many of the 
important leaders in the European Command. I support it. But, 
let's be clear. The only reason it's in OCO [The Overseas 
Contingency Operations] is because of the budget caps. Correct?
    Secretary Carter. Well, I think it was put into OCO 
originally because it----
    Senator McCaskill. I think the Chairman referenced this 
last year, when he said it's in OCO because it's like what the 
bank robber said. He said a bank robber----
    Secretary Carter. It's the Willy Sutton strategic----
    Senator McCaskill.--I don't remember who it was--right.
    Secretary Carter. No, there's something----
    Senator McCaskill. That's where the money is.
    Secretary Carter.--there's something to that. I mean, to be 
fair, I wasn't around at the time, but when the thing first 
came up in Crimea, urgent money was required. Money was moved 
within OCO, which is easier to do than in the base. But, you're 
right, the years go on, and then you say----
    Senator McCaskill. There's no----
    Secretary Carter.--why is this money in ERI?
    Senator McCaskill. Yeah.
    Secretary Carter. I----
    Senator McCaskill. There's no difference between the 
rebalance to the Pacific and the European Reassurance 
Initiative, correct?
    Secretary Carter. I am afraid that you're right, that--I 
only say I'm afraid because----
    Senator McCaskill. So, the only difference is----
    Secretary Carter.--what that means is that Putin's----
    Senator McCaskill.--an artificial----
    Secretary Carter.--Russia is here to stay.
    Senator McCaskill. Let me be clear here. The only reason 
they're in two different budgets is an artificial cap put on by 
Congress to try to pretend to the American people that we're 
balancing something.
    Secretary Carter. Well, I----
    Senator McCaskill. You don't have to comment on that. I 
just wanted that on the record. It just is so irritating to me 
that we can't be honest. Talking about being honest with the 
American people, how about being honest with the American 
people what we're doing about the base budget in the military? 
I am so tired of so many Members of Congress saying, ``Oh, we 
want to support the--we want to support the military. We want 
to support the military,'' and then we're shoving all these 
things in OCO that don't belong in OCO. The reason they're 
doing it is because they can pretend they're paying for it and 
pretend they're balancing something. It just is so irritating 
to me. I wanted to get that on the record first.
    Chairman McCain. We feel--do you feel better now?
    Senator McCaskill. I do.
    Chairman McCain. Thank you.
    Senator McCaskill. I know you relate.
    Chairman McCain. I do.
    Senator McCaskill. In fact, I think----
    Secretary Carter. Can I get in this, too?
    Chairman McCain. I totally agree.
    Secretary Carter. I feel better, also.
    [Laughter.]
    Senator McCaskill. I actually think----
    Chairman McCain. Totally agree.
    Senator McCaskill.--I think the Chairman totally agrees 
with me.
    Chairman McCain. Absolutely.
    Senator McCaskill. We just need more people to quit being 
hypocrites about balancing a budget, and be honest about what 
it takes to be fiscally responsible as it relates to our budget 
military.
    Sinai Peninsula, General Dunford. I know that you were just 
with Sisi. I am worried about other international peacekeeping 
initiative on the Sinai that's there, but--to enforce the 
agreements, back in the late '70s, between Israel and Egypt. 
There have been incidents. There have been Americans hurt. Tell 
me what you can about your sense of Egypt being capable of 
continuing to sustain and protect this peacekeeping mission.
    General Dunford. Senator, a couple of points.
    First, I have looked at this very closely over the last few 
months. While absolutely committed to remaining in the Sinai 
Peninsula to enforce the Camp David Accords, we, of course, are 
concerned about the protection of our forces. We've already 
taken a number of steps, to include providing them additional 
equipment and adjusting their posture to increase their force 
protection level.
    I am not satisfied we're where we need to be right now. 
We're working very closely with the Israelis, working very 
closely with the Egyptians to take some steps that will further 
enhance our force protection. If I'm not satisfied that we can 
properly address our force protection, which really includes 
two things, Senator--it includes adjusting our posture as well 
as addressing the terrorists that are in that environment and 
making sure that we have an effective counterterrorism plan in 
the Sinai, as well, in conjunction with the Egyptians--if those 
two conditions aren't met, then I'll have some recommendations 
to the Secretary and the President about what we do, moving 
forward.
    But, it is very sensitive right now, the discussions. I'd 
like to talk to you in private about----
    Senator McCaskill. Sure.
    General Dunford.--my conversation with Egyptians over the 
weekend, and the number of conversations with the Egyptians and 
the Israelis over the last couple of months. But, we're working 
very closely--because it is a trilateral issue, we're working 
very closely to address those two issues. You know, number one, 
the immediate posture of our force, but, as importantly, I 
think, both of these things are necessary for us to be 
satisfied that we've done all we can do for our men and women 
that are there. The second piece is to have an effective plan 
to deal with the terrorists in the region. There is clearly a 
strong presence of the Islamic State in the Sinai as well as an 
insurgency that has been going on in the Sinai for some time.
    Senator McCaskill. Thank you, General. I'll look forward to 
that and learning more. I'm very concerned about it.
    Finally, assistance to Jordan. I don't think people 
realize--in America, there has been a hue and cry about 10,000 
Syrian refugees. There's 1.4 million in Jordan. Makes up 13 
percent of their population. They closed the border last year 
because of it, because of the imbalance that was occurring 
within their country. I had an opportunity to be in Jordan a 
few weeks ago, visited with both our military, our terrific 
military leaders there, and also with the Jordanian military. I 
am worried about the 15,000 people along that border that are 
now sitting there because they're not being allowed to come 
into Jordan. As you all focus on northern Syria, I'm wondering 
what, if anything, you can tell me, in this setting--and maybe 
this is also for a closed setting, because most of what I've 
learned would be appropriate in a closed setting--about the 
drifting of ISIS and ISIL to the southern region along this 
border, where we now have 15,000 people just on the other side 
of the border from Jordan.
    Secretary Carter. Thanks. I'll say a few things about it. 
We can talk more in another setting. I'll ask the Chairman to 
chime in.
    But, first of all, thanks for going there and seeing our 
guys and gals, and also the--our fantastic partners in the 
Jordanians. You're right, that for--on a per capita basis, they 
have absorbed this enormous refugee situation. Yes, we've--we 
were actually talking a lot about the northern parts of both 
Iraq and Syria, but we're very mindful of the--of both southern 
Iraq and southern Syria, and the possibility that, as we apply 
pressure to the north in both Mosul and Raqqa, that ISIL will, 
as the expression goes, ``squirt out'' toward the south. We've 
talked to the Jordanians about that, talked to the Iraqis about 
that, and we've talked to the Israelis, by the way, about that, 
as well, and work with them. We do have operations that we're 
facilitating with Iraq, for example, in the direction of 
Rutbah, to the southwest, even as we help them move up the 
Tigris Valley to the north.
    Chairman, do you want to add anything to that?
    General Dunford. Senator, Jordan is clearly one of our more 
important partners in the region, and we have a strong 
military-to-military relationship with Jordan. So, part of what 
we're doing is increasing their capacity and supporting them. 
Then, the 1209 program that we spoke about earlier, which is--
from the NDAA--which is designed to allow us to grow effective 
indigenous ground forces to take the fight to the enemy--in 
this case, from Jordan into Syria--we're all--we also have an 
active 1209 program down in the Jordan-Syrian border area that 
I think is--you were probably briefed on during----
    Senator McCaskill. Correct. Thank you very much.
    Thank you both. Thank you for your service. We're very 
proud of you. We're going to do everything--I'm going to do 
everything I can to get what you need in the base budget, where 
it belongs.
    Chairman McCain. In Senator McCaskill's shy and retiring 
manner, she will do that.
    We thank you for your passion, Senator McCaskill. I----
    Senator McCaskill. Takes one to know one.
    Chairman McCain.--and I totally agree with your 
dissatisfaction. I agree with you, we are deceiving the 
American people, and that's not good.
    Thank you.
    Senator McCaskill. Thank you.
    Chairman McCain. Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    Thank you both for appearing again in front of this 
committee to discuss the Department of Defense's Middle East 
policy. Thank you also for the brave young and men--young men 
and women you represent, stationed in the United States and all 
across the world.
    This debate in our committee is a difficult one, because 
many of our concerns have to do with broad strategic decisions 
being made outside the Department of Defense. However, until 
the administration reforms its strategy to acknowledge the 
unpleasant realities of the Middle East, and recognize that 
America's security interests are, and--what exactly the United 
States strategies are, and are not, in these conflicts, I think 
Congress needs to be very cautious as we contemplate any 
further funding requests from the Department of Defense or any 
other national security agency.
    General Dunford, as President Obama reiterated in his 
meetings with European leaders this week, the United States 
counter-ISIS strategy ultimately relies on peaceful transfer of 
power in Syria from Assad's regime to an inclusive government 
there. Now, while certainly admirable, it's far from realistic. 
As Middle East journalist Thanassis Cambanis wrote in the New 
York Times 2 weeks ago, quote, ``Syria, one of the most 
important states in the Arab world, has cracked up, and no 
peace settlement can put it back together,'' close quote. In 
your professional opinion, General Dunford, what do you think 
the chances are that the sort of reconciliation and political 
unity sought by the Obama administration can happen in Syria, 
just given the amount of violence that we've seen there over 
the last 4 years, the competing outside interests, and the 
sectarian context of this fight? What does the intelligence 
that we're collecting tend to indicate about the possible 
willingness of these groups to come together to form some sort 
of government?
    General Dunford. Senator, I think the most difficult 
challenge in forming a new government is dealing with the role 
of Assad. I can tell you--you asked about the opposition 
groups--that they are absolutely adamant--and that's what the 
intelligence tells us--they're absolutely adamant that Assad 
have no future role in Syria. Until or unless the grievances of 
the civil war are addressed by these opposition forces, then 
I'd find it hard to imagine a successful political transition.
    Senator Lee. If a political solution to the Syrian conflict 
continues to elude diplomats in Geneva, there will not be a 
political sovereign to unite the various rebels who we know, 
through previous testimony, often have competing or 
conflicting, perhaps mutually inconsistent, long-term goals as 
well as ideals.
    Secretary Carter, what will become of the weapons and the 
equipment that we've provided to these rebel groups if a 
peaceful resolution of this conflict remains out of reach? Will 
we simply have dumped hundreds of millions of dollars' worth of 
equipment and worth of weapons and--into an already volatile 
situation?
    Secretary Carter. I'll answer the general question, then we 
go into more specifics. But, I can't answer the general----
    In everything we do in--there, as elsewhere, we always 
think ahead when we're providing weaponry to a group about, 
sort of, What's the future and what's the next step? So, we 
certainly have thought about that in that region, as well.
    To your bigger question, which is, What is the role of--I 
think what you're saying is what we would call the Moderate 
Opposition--in the future of Syria? Our strategy--political 
strategy, and the one that Secretary Kerry is pursuing, is that 
Assad leaves, the structures of the government remain in place, 
but without Assad, and that the Moderate Opposition becomes 
part of the government, and there is a government that can give 
the Syrian people what they deserve, which is a country that 
runs and a country that's moderate and a country that treats 
its people decently. We're a long way from that now, but that's 
the vision for Syria.
    Senator Lee. And----
    Secretary Carter. These people have a role, is the point.
    Senator Lee. You think that's a realistic vision, one that 
we could realistically achieve within the necessary time?
    Secretary Carter. I think it's a necessary one to achieve, 
because I think Assad can't be part of the future of that 
country----
    Senator Lee. But, what----
    Secretary Carter.--and that is the right----
    Senator Lee.--if he doesn't go? What if he doesn't leave?
    Secretary Carter. The--this is why it's so important that 
the Russians keep their commitment, which is to a political 
transition there. They're the ones that have the most leverage 
over Assad right now. It's very important that they do that, 
because, as the Chairman indicated, there's no resolution of 
the Syrian civil war until that occurs.
    Senator Lee. Thank you.
    Chairman McCain. Senator Shaheen.
    Senator Shaheen. Well, thank you both for being here, 
Secretary Carter and General Dunford, and for your service, and 
for dealing with what is a very big challenge for this country 
and for most of the civilized world.
    I want to follow up on Senator McCaskill's comments about 
Jordan and the number of refugees that they have taken in, 
because Lebanon is another country in the Middle East that has 
taken in a significant number of refugees. I think about a 
quarter of their population now are refugees. I noticed there 
was a story in this morning's news about the Lebanese army 
killing an ISIS leader who was operating out of Lebanon along 
the border with Syria. Can you talk about the importance of the 
military contribution that some of our partners in the Middle 
East are making to the fight against ISIS?
    Secretary Carter. I can. You've mentioned the Jordanians. 
The Jordanians are great partners, in every respect. The 
Lebanese Armed Forces, as well. We've had a longstanding role 
in supporting them. I believe General Dunford knows that much 
better than I do, and perhaps you can speak to that. I can't 
speak to overnight developments in that regard, but let me ask 
the Chairman if he wants to add anything about our support for 
the LAF over--Lebanese Armed Forces--over time.
    General Dunford. Senator, we've had, for years--and I was 
the component commander in the United States Central Command, 
working with the Lebanese Armed Forces--we've had, for years, a 
strong military-to-military relationship with the Lebanese 
Armed Forces. I think, particularly today, it's important that 
we continue that. They have been, you know, partners in the 
fight against ISIL right now, and it's important we continue to 
support them.
    Senator Shaheen. Thank you. I would also just like to point 
out something that, as we're talking about refugees and the 
humanitarian situation, we had an interesting hearing before 
the Foreign Operations Subcommittee of the Appropriations 
Committee with Bono, who connected humanitarian aid to our 
national security. I think that's an important connection that 
we too often don't recognize, that if we are supporting 
refugees who are in Jordan or in Lebanon, and we can keep them 
in the Middle East so they can go home to Syria once the 
fighting ends, it's a lot better for us, and it's better for 
them, than not supporting those efforts and continuing to 
support the conflict.
    Let me ask you--and I know there's been some discussion 
about what Russia is doing. Of course, they had a very well 
publicized announcement about their withdrawal from Syria last 
month, but there remains a significant Russian ground and air 
force in Syria. Do we know what they're doing? Can you tell us? 
Are they--are there any indications that they intend to depart, 
in whole, anytime soon?
    Secretary Carter. We do watch them. We do know what we're 
doing. You are right that it was far from a complete 
withdrawal, despite how it was ballyhooed initially. With 
respect to their specific operations, we obviously keep very 
close eye on that, know it extremely well.
    Let me see if the Chairman wants to add anything to that.
    General Dunford. The only thing I'd say, Senator, is, I 
have not seen a significant reduction in forces by the 
Russians, nor have I seen less support for the regime than 
there was before they announced that reduction. So, you know, 
as I look at it, despite some rotation of forces and so forth, 
it seems to me pretty much status quo today, relative to before 
the announcement.
    Senator Shaheen. Given the cease-fires really ending in 
Syria, and the increased conflict, is there any reason to 
believe that we can work with Russia to try and get people back 
to the negotiating table, to try and get back to a real cease-
fire again, and to make any progress on a transition in Syria?
    Secretary Carter. That's the aim and the path that 
Secretary Kerry is on. He's the authority on that and has been 
managing that. But, that's precisely what he's trying to 
accomplish.
    Senator Shaheen. Well, I appreciate that he's managing 
that, but obviously one of the significant factors in 
encouraging Syria to do that is the success of the military 
efforts there, and Assad being able to see that he's--doesn't 
have a path to continue staying in power.
    Secretary Carter. Well, I--I'd--I'll just repeat what I 
said before. That's why, when Russia--that's why there's such a 
difference between what Russia said it was going to do and what 
it did. They said they were going to contribute to the ending 
of the Syrian civil war, and that--propping up Assad militarily 
is not doing that, and has not done that. They also said they 
were going to fight ISIL, but they were mostly propping up----
    Senator Shaheen. Right.
    Secretary Carter.--Assad. No doubt about it.
    Senator Shaheen. Thank you.
    Thank you both.
    Chairman McCain. Senator Graham.
    Senator Graham. Thank you all.
    Secretary Carter, have you ever heard of the PYD 
[Democratic Union Party]?
    Secretary Carter. I have, yes.
    Senator Graham. Who are they?
    Secretary Carter. They're a Kurdish group, one of several--
a number of----
    Senator Graham. Have you heard of the YPG [People's Defense 
Units]?
    Secretary Carter. I have heard of them, also.
    Senator Graham. Who are they?
    Secretary Carter. Another Kurdish group.
    Senator Graham. Aren't they the military wing of the Y---
PYD?
    Secretary Carter. They are, yes.
    Senator Graham. Is that right, General Dunford?
    General Dunford. That is correct.
    Senator Graham. They're a leftist Syrian Kurdish political 
party founded in 2003. Reports indicate that they are aligned 
or at least have substantial ties to the PKK [Kurdistan 
Workers' Party]. Is that true?
    Secretary Carter. Yes. We have----
    Senator Graham. Is the PKK a terrorist organization, in the 
eyes of the Turkish Government?
    Secretary Carter. The PKK is a terrorist organization, not 
only in the eyes of the Turkish Government, but in the eyes of 
the United States Government, as well, Senator.
    Senator Graham. Is it a--surprising to you that the Turks 
may be upset with us by arming the YPG in Syria, since they're 
so closely aligned with the PKK----
    Secretary Carter. No, it's not----
    Senator Graham.--a terrorist organization?
    Secretary Carter. No, it's not at all, Senator. We have--
let me just clarify. Let me just say that--and the Chairman's 
been involved in this, as well. This is--we have extensive 
consultations with the Turks about----
    Senator Graham. So, Turkey is----
    Secretary Carter.--this precise----
    Senator Graham.--okay with this?
    Secretary Carter. Let--they're not okay with that, but----
    Senator Graham. I just got back from Turkey. They're not 
okay with this. They think this is the dumbest idea in the 
world. I agree with them.
    How many of the Syrian Democratic Forces, or whatever we're 
talking about, are Kurds versus Arabs, General Dunford?
    General Dunford. There's about 6,000 Arabs, Senator.
    Senator Graham. Well, what percentage of the force is that?
    General Dunford. That's about 20 percent.
    Senator Graham. Okay. So, if you're wondering why Turkey's 
a little upset, we're arming people inside of Syria aligned 
with a terrorist group that's fighting the Turkish Government. 
Turkey could do more, but I think this whole concept is, quite 
frankly, absurd.
    I just got back from Saudi Arabia. They believe that--
they're not going into Syria as long as they think Assad's 
going to win and Damascus will be controlled by the Iranians. 
Have they ever expressed to you their displeasure with our 
policies toward Assad?
    Secretary Carter. Oh, I'll take that, but I want to--I do 
want to get back to the Turks, though. They--thanks for going 
there, and thanks for talking to them. They're a NATO ally. 
It's real important. We do discuss with them our effort to--
which is an important effort, and one that's important to 
protecting----
    Senator Graham. Secretary Carter----
    Secretary Carter.--ourselves----
    Senator Graham.--I've got 2 minutes left. I'm not asking 
you to tell me what they told me. I know what they told me. 
They may have told you something different.
    Secretary Carter. Well, then let me----
    Senator Graham. I know what----
    Secretary Carter.--then let me go on to the Saudis----
    Senator Graham. The Saudis, yes.
    Secretary Carter.--because----
    Senator Graham. Did they have----
    Secretary Carter.--I was just there, and they----
    Senator Graham.--a real problem with our policy toward 
Assad?
    Secretary Carter. I think they--the Saudis, having been 
there just last week, have the same problem we do, which is 
that Assad is still there.
    Senator Graham. Is it fair to say that the Saudis in every 
Gulf Arab state believes that Assad is firmly entrenched 
because of the Russian-Iranian backing?
    Secretary Carter. Again, that's an observation that we----
    Senator Graham. Okay.
    Secretary Carter.--would make----
    Senator Graham. It----
    Secretary Carter.--and did make with the Saudis. We agree 
with that.
    Senator Graham. Did----
    Secretary Carter. That's where the Russians----
    Senator Graham. Did we ever suggest to----
    Secretary Carter.--seemed to change their tune.
    Senator Graham. Our goal is to destroy ISIL and to replace 
Assad. On the Assad side, he's more firmly in power than ever. 
January the 20th, 2017, President Obama will leave office. Is 
it likely that Assad will be in power?
    Secretary Carter. I hope not.
    Senator Graham. Okay. I think it's likely he will be, 
because hope's not a strategy.
    Plan B. Secretary Kerry says there's a Plan B if the cease-
fire falls apart, that he's let the Russians know we're going 
to try it nice, but if the cease-fire falls apart, there's a 
Plan B. Do you have a Plan B for Assad?
    Secretary Carter. I--I'm going to let Secretary Kerry speak 
to the--to his----
    Senator Graham. Well, but, I mean, he----
    Secretary Carter.--his diplomacy----
    Senator Graham.--he has the State Department. The State 
Department's not going to go take Assad out. Is there a 
military component to Plan B?
    Secretary Carter. I think what the--again, I don't----
    Senator Graham. Or is Plan B just BS?
    Secretary Carter. I don't--I am sure that it's not BS. I--
--
    Senator Graham. Well, have you been talk--have you talked 
to the Secretary of State----
    Secretary Carter. Of course. I----
    Senator Graham.--about a military----
    Secretary Carter. Yes. Yes.
    Senator Graham.--change in strategy----
    Secretary Carter. Yes, of course. Without speaking for him, 
Senator, I think what he's saying is that the United States----
    Senator Graham. No, my question is, Have you had a 
discussion with the Secretary of State about a change in 
military strategy if the cease-fire falls apart regarding Assad 
in Russia? Have you had that discussion?
    Secretary Carter. We have had a change--many discussions 
about changes of----
    Senator Graham. Is there a Plan B?
    Secretary Carter.--changes of strategy.
    Senator Graham. Is there a Plan B?
    Secretary Carter. I wouldn't call it a Plan B, but I'm 
going to let him speak for----
    Senator Graham. Outline the change----
    Secretary Carter.--for his----
    Senator Graham.--in military strategy.
    Secretary Carter. We have discussed alternative 
strategies----
    Senator Graham. What are they?
    Secretary Carter.--with respect to----
    Senator Graham. What are they?
    Secretary Carter.--Syria. Some of them I'm prepared to 
discuss here, some of them I'm not.
    Senator Graham. Well, let's have a classified----
    Secretary Carter. As you well know----
    Senator Graham.--hearing, Mr. Chairman, about this.
    Secretary Carter.--as you well know, the entirety of what 
goes on in Syria is not something we can discuss here, as----
    Senator Graham. Okay. I don't----
    Secretary Carter.--you well know.
    Senator Graham.--want to put you--I like you, I'm not----
    Finally, General Dunford, is this the Dunford plan to 
destroy ISIL or is this the plan that General Dunford came up 
with, given that--the constraints put on him by the White 
House?
    General Dunford. Senator, when I came in, last October, 
there was a strategy. We made some recommendations last October 
to accelerate our progress against ISIL. Those recommendations 
were accepted by the President. I would say, I'm in my job 7 
months, so I own it.
    Senator Graham. Okay, good. So, I just wanted the whole 
country to know this, that the President's goal is to destroy 
ISIL. I share that goal. I know you do, too. The military 
strategy that we're embarked on in is the best way to destroy 
ISIL, and it's what you recommended. Or is it limited by 
conditions put on you by the White House?
    General Dunford. Senator, if I--to clarify. So, if I say--
--
    Senator Graham. Would you do more if you could?
    General Dunford. I would do more if I could, but the 
limitation is not just a political limitation. Part of is our 
partners on the ground.
    Senator Graham. Right.
    General Dunford. But, I just want to clarify. If what 
you're saying is the strategy, meaning a ``by, with, and 
through indigenous partners on the ground'' being the 
methodology for securing territory and defeating ISIL, I 
support that.
    Senator Graham. So, you think the YPG are going to 
liberate--a 80-percent Kurdish ground force is going to take 
ISIL--Raqqa away from ISIL and hold it?
    General Dunford. The YPG have secured a large predominantly 
Kurdish area----
    Senator Graham. That's not----
    General Dunford.--north of----
    Senator Graham.--my question.
    General Dunford.--Syria.
    Senator Graham. Are they going to be able to take Raqqa, 
Syria, away from ISIL and hold it?
    General Dunford. They----
    Senator Graham. 80-percent Kurdish.
    General Dunford. They will not, in and of themselves----
    Senator Graham. Thank you.
    General Dunford.--Senator.
    Senator Reed [presiding]. On behalf of the Chairman, let me 
recognize Senator Kaine.
    Senator Kaine. Mr. Chair, could I defer to Senator King and 
trade places?
    Senator Reed. Absolutely.
    Senator King, please.
    Senator King. Thank you.
    Several observations, based upon this excellent hearing.
    Number one, I want to associate myself with the Chairman's 
comments about Afghanistan. I think I--and the concern is that 
a decision has to be made in the next several months. I don't 
think we're going to learn anything in the next several months 
that we don't know now, because the drawdown, the scheduled 
drawdown has--it's going to have start late this summer or 
early fall to make the January deadline. I sincerely hope that, 
given where we are, given the level of violence, given the, 
really, I think, surprising--or, shouldn't say surprising, but 
the effectiveness of the Afghan forces, we ought to provide the 
support necessary, including the authorities, to maintain what 
we've gained there, which has been considerable. That's number 
one.
    Number two, a lot of talk here today about end strength. 
I've learned, from talking to senior military officials, 
particularly in the Army, that readiness is as important as end 
strength, that you can have a big number, but if you've got 50-
percent readiness, or 30 percent or 60 percent, that's really 
important. So, I think that's an important consideration.
    Finally, on the Law of the Sea--I mean, I'm sorry, on China 
and the chart that we saw, it would really help, in my view, if 
we were members of the Law of the Sea Treaty so we could be at 
the tribunal that's making these decisions.
    On the last point, Mr. Secretary, do you agree?
    Secretary Carter. I do, yes. I mean, a long line of defense 
officials who have--and Navy officers--who have supported that 
agreement were not party to it, but we do respect its 
provisions.
    Senator King. But, it's not in our national interest to not 
be at the table, it seems to me.
    Secretary Carter. I--again, people have sat in this chair 
and testified for many years in favor of that treaty, but that 
has not carried the day.
    Senator King. Secretary Carter, the most disturbing thing 
you've said today that, in my view, is--you--and you sort of 
touched on it and then we went by in the hearing and never got 
back to it--you suggested there's been a rise of 
ethnosectarianism in Baghdad. If that's the case, number one, 
that's a disaster, because that laid--that was what--the Maliki 
policy is what laid the groundwork for what happened with ISIL. 
Number two, what can we do about it? Are we trying to do 
something about it? I'm not talking about just jawboning. Are 
we talking specific, direct pressure, if you will, on the Iraqi 
Government? Because if Baghdad isn't inclusive, then this whole 
enterprise is just not going to be successful.
    Secretary Carter. Yeah, well, what I was referring to is 
the turbulence in Baghdad, or--just over the last couple of 
weeks, in which the Prime Minister and--has been contending 
with a variety of the opposition parties. That's a serious 
concern to us, because the integrity of the Iraqi state is an 
important part of the end state our strategy seeks. We support 
the--Prime Minister Abadi in his overall approach to--which is 
a multisectarian, as he says----
    Senator King. Is he backsliding on that?
    Secretary Carter. He----
    Senator King. Because I've----
    Secretary Carter. He----
    Senator King.--in several hearings, I've been told he's 
doing the right thing, he wants to do the right thing. Is 
that--are we losing ground on that?
    Secretary Carter. I had a conversation, just a week and a 
half, and we're completely aligned on what we're trying to do 
there with respect to our campaign. But, it's also true that he 
is contending with a very complicated mix there. With your 
respect--with respect to your question, ``What are we doing 
about it?"--in addition to providing political support, I want 
to reiterate the importance of the economic support. That's not 
just by the United States, but by its others--by others, as 
well. So, when I was with the President in Riyadh last week, we 
were urging the Gulf states--that's a place that they could 
contribute--"Don't cede Baghdad to Iran. Get in the game, 
support a multisectarian approach.'' That's what Abadi is 
trying to stand for. That's what Maliki didn't stand for. It's 
important to support him, both politically and economically. 
The economic situation is particularly important today, in view 
of the low oil prices.
    Senator King. Concern about the Mosul dam. Are you 
satisfied that the Italian contractor and the arrangement 
that's been made by the government in Iraq is sufficient and is 
going to be timely? I--it would be an absolute catastrophe if 
that dam went out.
    Secretary Carter. It is. They are--it is the best-practices 
outfit to do grouting at the dam. With respect to the timing 
question, that is the concern we all have, to get that grouting 
done as soon as possible to mitigate the risk that there are 
failures in the dam before the grouting is complete and this 
dam can be shored up.
    Senator King. One more quick question.
    General Dunford, we talked about how ISIL has been 
degraded. That seems to be the consensus that I'm hearing in 
the last few weeks, in terms of briefings from--in various 
settings. Are they being degraded in terms of equipment as well 
as finances, manpower, foreign fighters? Where are they getting 
their equipment?
    General Dunford. Senator, there is--as you can imagine in 
Iraq, in particular, there's no lack of AK-47s and weapons that 
have been left behind as a result of years at war. I think, 
primarily, they got them from the former--you know, former 
Iraqi soldiers brought their weapons with them, and large 
ammunition stores that they seized in the early days of the 
war. You'll recall they had pretty significant progress 2 years 
ago in grabbing ground and territory, and part of that ground 
was ammunition depots and weapon storage areas and so forth 
from the Iraqis.
    Senator King. Are they--is--are they being squeezed now on 
that front, though?
    General Dunford. Very much so, Senator. I mean, I would say 
that their freedom of movement has been reduced. Their ability 
to resupply with foreign fighters and equipment has been 
reduced, in addition to the resources that you spoke about. I 
would say that their military capability has been degraded, to 
include their equipment.
    Senator King. Do we have any information that their morale 
is declining?
    General Dunford. We do. We do, Senator. That's an important 
point. In fact, my observations on my recent trip and really 
over the last few months, I think one of the more significant 
things I see is the relative morale of the Iraqi Security 
Forces and the Peshmerga versus ISIL. We see, in the 
intelligence and anecdotally from our commanders, that the 
morale and the spirit of ISIL has eroded over time as a result 
of their battlefield losses and as a result of the fact that 
their pay has been cut significantly because they--because of 
the resources that--constraints that the leadership has.
    Senator King. Always a negative effect on morale.
    General Dunford. Has a negative effect on moral.
    Senator King. Thank you very much, gentlemen.
    Senator Reed. Thank you.
    On behalf of Chairman McCain, Senator Tillis, please.
    Senator Tillis. Thank you, Senator Reed.
    Secretary Carter and General Dunford, thank you for being 
here.
    I went on a CODEL during the recess, and was in Israel, 
Egypt, Saudi Arabia, and Turkey. One of the feelings that I 
got, in speaking with a number of the leaders there, was a 
sense that--I think everyone recognizes, at some point, if we 
take advantage of, maybe, some of the degraded status of ISIS, 
at least in that region, that, ultimately, once we take ground, 
we're going to have to hold it. For us to hold it, we're going 
to have to have people present there that are, hopefully, not 
men and women in American uniforms. It's going to come from the 
coalition, the partners in the Middle East. But, the sense I 
got is, they're not--I mean, they want to be prepared to do it, 
but they are not necessarily prepared to take the kind of fight 
and have the kind of presence in Syria that we're going to 
need. Do you agree with that assessment, General Dunford or 
Secretary Carter? What specific actions are we taking to 
prepare the Saudis, for example, to be able to play a role in 
that, along with the Iraqis and the other partners in the 
region?
    Secretary Carter. I'll start off, having just been in Saudi 
Arabia. I can speak to the Saudis and then ask the Chairman to 
jump in.
    I think that--I won't speak for them, but I--from our 
conversations, they have the--some of the same view we do, 
which is, in the end, it can't be them or us, it has to be 
local people. But, they want to join the campaign and play a 
role. The only thing I'd say is, we always have to remember, 
this is a two-way street, so the people who--whom you think 
you're helping have to welcome your help. That can be an issue. 
That's why it's so important to navigate the complex shoals of 
Baghdad politics that we were discussing earlier, because we do 
everything with the permission and through the Iraqi 
Government.
    In Syria, there obviously is no government with which we 
can cooperate, but we still need local forces who live there, 
and want to live there. That's why--to get back to Senator 
Graham's point, he's absolutely right, Kurds are not the right 
people to take and govern Raqqa. We know that. We are looking 
to identify and then enable Syrian Arab forces that would be 
the appropriate people to take and govern Raqqa. Because the 
people have to be--have to accept their liberators, and the--
you can't just come in and say you're the liberator, you have--
they have to believe that, or you'll get the kind of violent 
backlash.
    So, the Saudis and the--and others that--in the region 
understand that dynamic.
    We're looking for their help, finally, it--not only in 
terms of military help, but this is where their economic and 
stabilization assistance can be so important. So, if the Gulf 
states would help the Sunni lands being taken back by the Iraqi 
Security Forces, that would be--that--that's a--it would help 
the state of Iraq. As I mentioned earlier, it's a counterweight 
to what is clearly Iranian influence in Iraq. We think Iraq 
ought to be a multisectarian place, not an Iranian place or 
anything else.
    Senator Tillis. Your response lets me, maybe, further 
refine the question. What I--what I'm more concerned with, 
General, is--you, as a warfighter--is the level of capability--
you know, the Saudis--we'll use the Saudis as an example, since 
I was there--they seem to have very good capabilities in the 
air, not really that good capabilities, by our standards, on 
the ground. So, to put them in a situation where they're 
partners with Iraq or to put them in a situation where, when we 
finally gain the momentum to try and eradicate ISIS from Syria, 
I'm wondering if their level of readiness is approaching 
anything that would make that possible with them as a key 
partner. In Iraq, for that matter.
    General Dunford. Senator, I think each of our partners in 
the Gulf states have certain capabilities that could be 
employed to good effect in Syria, where they'd have the will to 
do that.
    Senator Tillis. I guess the final question is--in my time 
in Egypt, you know, I was aware of the presence of ISIS, or, as 
they prefer to call them, Daesh, in Sinai is growing in--kind 
of as a hub in that area. It seems to me a part of the mission 
that we have to conclude successfully in Syria is to make sure 
they are either captured or killed in Syria, and do not regroup 
and refortify somewhere else. I assume that's a part of the 
strategy. Is there anything specifically you can talk about 
here?
    Secretary Carter. It is. Let me ask the Chairman to 
specifically talk about Sinai, because he's been working so 
intently upon that. But, I--your point is absolutely right 
about the Gulf states, in the sense that their capabilities to 
operate, particularly against asymmetric threats in the region, 
is an area where we think they could improve. We want to help 
them. That was one of the themes of the meeting the President 
had. I'm sorry, I knew that--now I understand that's what you 
were getting at, and it's--that's absolutely right.
    Let me ask the Chairman on the MFO or Sinai.
    General Dunford. Senator, I agree with your assessment on 
ISIS in the Sinai. It is a critical note, and it has to be a 
part of our strategy, and is a part of our strategy. In fact, I 
just came back from a visit to Cairo over the weekend to talk 
to our Egyptian partners about improving our cooperation in 
dealing with ISIS, not only in the Sinai, but across North 
Africa.
    Senator Tillis. Thank you.
    Mr. Chair, you weren't here when I started. I wanted to 
thank you for your leadership on the veterans bill. I had to 
step out for a press conference for veterans affairs, but--
Chair is trying to take care of you all that are serving now 
and everybody that's served in the past. I thank you for your 
leadership.
    Chairman McCain [presiding]. Thank you, Senator Tillis.
    Vice President Kaine.
    [Laughter.]
    Senator Kaine. The Vice President of your fan club.
    [Laughter.]
    Senator Kaine. I'm sure there's a lot of competition for 
that role.
    [Laughter.]
    Senator Kaine. Let me thank the witnesses for your 
testimony.
    I also just want to compliment you on some tactical 
successes that you've described in the earlier testimony. The 
battlefield space of ISIL is shrinking, but it creates new 
challenges, because, as they feel that shrinking, they want to 
do other things that are more asymmetric in other cities around 
the world to maintain relevance. So, that's going to pose all 
kinds of challenges for us.
    While I do applaud you for tactical successes, I'm going to 
just repeat a refrain with the announcement of the escalation 
of troop presence in Syria. I am deeply concerned about the 
legal basis for this war, both domestic and international legal 
basis.
    On the domestic side, I am in a minority in this body, in 
Congress, in believing that the 2001 authorization does not 
provide a legal justification for this war. I think that there 
isn't a domestic legal justification unless and until we do an 
authorization for military force.
    General Mattis, the former head of CENTCOM, spoke last 
Friday at the Center for Strategic and International Studies 
and was partially critical of Congress for not passing an 
authorization. He said, quote, ``Worth more than ten 
battleships or five armored divisions is a sense of American 
political resolve.'' I just worry that we haven't sent that 
sense, and, on Congress's shoulders, we haven't sent that 
sense.
    General Dunford, you testified, about a year ago, in the--
as Commandant of the Marine Corps, for this committee, and I 
asked you about an authorization and what it might do. You 
said--and this is almost a direct quote--"What our men and 
women need, and it's virtually all that they need, is a sense 
that what they're doing has meaning, has value, and has the 
support of the American public.'' I don't think we've given 
them that. I don't think we've sent a message of political 
resolve as the political leadership, as the decisionmakers 
contemplated in Article 1 of the Constitution. We've not sent a 
message of resolve to our troops, we haven't sent them--that 
message to our allies, we haven't sent that message to our 
adversaries. So, I continue to believe that the domestic legal 
authorization for this war is highly problematic.
    Want to turn my attention to a second legal issue, which I 
usually haven't talked about, and that--that there's got to be 
international legal basis for war, as well. If you are fighting 
a war on your own soil, and you're not invading anybody else's 
sovereignty, you don't need separate international legal 
justification for fighting that war. But, if you're into the 
sovereign space of another nation, there not only has to be a 
domestic legal justification, there's got to be an 
international legal justification.
    Now, a common legal justification, one of the most common 
on the international side, is that you have been invited in by 
the sovereign nation that wants your help. United States action 
against ISIL in Iraq right now is at the invitation of the 
Iraqi Government, so there is clear international legal 
justification for all of our activities in Iraq, setting aside 
the domestic question.
    I'm sorry to say this, but there is also international 
legal justification for Russian military activity in Syria, 
because Russia has been invited in by the sovereign Government 
of Syria. We may like it, or we may not. We may think it's a 
bad idea. But, in terms of the international legal 
justification for Russian activity in Syria, they've been 
invited in by a sovereign government.
    Russia, through proxies, and even through their own forces, 
is carrying out military operations in Ukraine. That's a 
violation of international law. It's a clear violation of 
international law, because Ukraine has not invited them in. 
They are carrying out military operations in a sovereign nation 
without the support of that sovereign nation, contrary to the 
wishes of the sovereign nation.
    But, what I struggle with is, How can we criticize the 
Russian incursion into Ukrainian sovereignty when we are 
carrying out now escalating military operations in Syria 
without the permission, and really even against the will, of 
the sovereign of that nation? I am correct, am I not, that 
Syria has not invited us to conduct military operations within 
the nation of Syria?
    Secretary Carter. You're correct. Just to address a couple 
of points that you've made. First of all, I want to hasten to 
say I'm no lawyer, but we do have lawyers. With respect to the 
AUMF, Authorization for the Use of Military Force, I agree with 
you. I testified in favor of there being such an AUMF for--
importantly, because it would signify to the troops that the 
country's behind them. Now, I think they feel like they're 
behind them. The Chairman and I try to attest to that. Your 
visits to the region attest to that. So, I think they feel 
that, but that would have been another way of attesting to 
that.
    I am told by the lawyers--and I believe this--that the 
legal basis for what we're doing exists in both domestic law 
and international law for everything we're doing. But, again, 
I'm not the expert on that, and couldn't explain to you the ins 
and outs of it.
    I--you know, I also will say that the--if--there's a 
difference between what we're doing in Syria and what the 
Russians did in Ukraine. We're trying to fight real terrorists, 
we're not trying to destabilize a stable situation. So, we're 
trying to return order and decency, not the other way around.
    So, I don't know what a lawyer would say, but, as a----
    Senator Kaine. Yeah.
    Secretary Carter.--a commonsense answer----
    Senator Kaine. Can I----
    Secretary Carter.--is, there's a big difference.
    Senator Kaine. Of course there is. I completely agree with 
you. I completely agree with you. But, if I had Russian 
witnesses on the stand, they would talk about why they're doing 
what they're doing in the Ukraine. I mean, I--and I'll just 
conclude with this, Mr. Chair. At the end of this 
administration, as a strong friend and supporter of this 
President and as a strong friend of everybody around this 
table, I think we've made a complete hash of the--and that's a 
diplomatic phrase--of the doctrines of war, both domestic and 
international. We are in--we are engaged in an incursion into 
the sovereign nation of Syria without their permission, against 
their will. We are trying to criticize Russia for engaging into 
an incursion into another nation against their will. We're 
asserting, as the difference, that we're doing something good 
and they're doing something bad. I agree that we're doing 
something good. I agree that they're doing something bad. But, 
that's not a limiting principle, because everybody's going to 
say what they're doing is good.
    At the end of this administration, with the complicity of 
this Congress, I think we've basically come up with a war 
doctrine that says ``wherever and whenever,'' as long as the 
President feels that it's a good idea, without Congress even 
needing to do anything about it. The problem is, if that is the 
rule--and I think that's become the rule--that's a rule that I 
think will haunt us, domestically, under future Presidents and 
Congresses that I could see, and I also think it's a rule that 
can easily be seized by any other nation to, basically, justify 
all kinds of things that are horrible.
    We're only 6 months before the end of the administration, 
an administration that promised, 3 years ago, March of 2013, 
that they would try to work with Congress to revise the 2001 
authorization that is currently being used as a justification 
for actions, not only in Iraq and Syria, but Yemen and Africa 
and these--Arabian Peninsula. There has been virtually no work 
done to put any limiting principle on that, certainly not in 
any kind of a negotiation with Congress that I'm aware of.
    We're going to, basically, be in a position where we've 
turned a 60-word authorization from 2001, with a lot of 
administrative gloss that wasn't even in the authorization, 
into an all-purpose wherever-whenever domestic justification.
    Then we've taken common international principles of law 
and, basically, we've decided that, if our motives are okay, we 
can incur into the sovereignty of another nation because we're 
doing the right thing. But, then that takes away our ability to 
effectively criticize other nations that get into the 
sovereignty of other nations, as Russia is doing in the 
Ukraine.
    So, Mr. Chair, this is not a subject that we're going to 
resolve today, but I just--as we reach these new milestones of 
escalation, I'm just going to keep putting on the record a deep 
concern about the precedent that we're setting for this Nation, 
but also the example that we're setting for other nations.
    Thank you.
    Senator Reed [presiding]. Thank you, Senator Kaine.
    On behalf of Chairman McCain, let me recognize Senator 
Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I want to thank Senator Kaine for that very powerful and 
compelling summary of concerns that I share. I won't give my 
own version of them, because he stated them very well and 
you've been here for a long time. I thank you for being here so 
patiently and so informatively to this committee.
    I noted, Mr. Secretary, that there was a note of pride in 
your voice when you said you were not a lawyer----
    [Laughter.]
    Senator Blumenthal.--for which I forgive you.
    Secretary Carter. I only meant that I was a physicist.
    [Laughter.]
    Senator Blumenthal. There are many days that I wish I were 
a physicist, and there's no way I could be.
    So, thank you both for your service.
    I want to explore an issue that I think is extremely 
important, the evolving military cooperation between Russia and 
Iran. It may have been mentioned here, but not in depth. There 
have been reports in recent weeks that have highlighted 
Russia's shipment of parts, the S-300 Air Defense System, I 
believe, to Iran. In addition, Russia and Iran are supposedly 
in talks over the Sukhoi fighter jet and possible shipment of 
that weapons platform. If these systems are delivered, clearly 
there has been a violation of U.N. Security Council 2231. I'm 
not an international lawyer, but seems pretty clear that would 
be a violation, which requires Security Council approval for 
the sale of any major combat systems to Iran for the next 5 
years.
    Supplying weapons to Iran is particularly dangerous because 
it's not done in a vacuum. Supplying weapons reflects a growing 
partnership that has far-reaching ramifications for Hezbollah, 
because that is Iran's terrorist proxy. It also benefits, at 
least indirectly, from Russian arms and military operational 
experience in Syria.
    So, my question to both of you--may I begin with General 
Dunford--is, What are the implications for Israel if Iran 
continues to receive military equipment in Russia? What would 
the United States have to do to counter it?
    General Dunford. Senator, thanks. I think clearly there are 
implications for Israel. I've visited, now, a couple of times, 
here, over the last few months, and the Israelis view the 
developments in Iran with great concern. That has a lot to do 
with our continued commitment to make--to ensuring that Israel 
maintains a qualitative military edge in the theater. The 
implications are that we will continue to work very closely 
with the Israelis to make sure that they have the capabilities 
and the capacities. As you know, they now talk about QME-2, 
meaning not just the capability, but also the capacity, to deal 
with threats in the region. I think our commitment to what the 
Israelis now call QME-2 is really the most appropriate response 
to the developments in Iran.
    But, I do share your concern, and I know the Israelis do, 
as well.
    Senator Blumenthal. Secretary Carter, what can be done to 
stem the flow of arms in this way? Obviously, there are 
potential diplomatic steps. Are there also military steps that 
can be taken?
    Secretary Carter. First of all, let me associate myself, 
what the Chairman just said. But, there are both diplomatic and 
military steps. I don't mean military steps in the sense of 
attacking, but I mean in posture. The diplomatic ones, I can't 
speak to, but there is a body of U.N. Security Council 
resolutions. There's not just one, there are a number of them. 
I'm not an expert on that, but I know they do apply. They 
should constrain countries that are supplying Iran with 
dangerous arms because of Iran's other activities, in terms of 
supporting terrorism, in terms of ballistic missile threats, 
and so forth, for which they have been sanctioned and which 
are--and which sanctions were not a part of the Iran nuclear 
deal.
    To the military provisions, I'd just say this. This is one 
of the reasons that I was in the Gulf, when the President asked 
me to go there before him last week, is to talk to our Gulf 
partners about fortifying themselves. Now, that wasn't a 
conversation with Israel, but I've had conversations with 
Israel, as well. Also, to strengthen their capabilities. We do 
that in missile defense, lots of other areas, committed to 
their qualitative military edge, as the Chairman indicated. Of 
course, they have broader concerns than Iran, but Iran is their 
principal concern.
    That's the reason--one of the--we have our--a huge posture 
in the Middle East--military posture--United States military 
posture. Part of that is ISIL, but the other one is ``I"--is 
the other ``I"--ISIL, and then there's Iran. That's why we're 
there. To underscore deterrence, to support our friends and 
allies, especially including Israel, against Iranian aggression 
and malign influence. So, it's a--very important.
    Senator Blumenthal. I take it that this continuing flow of 
arms--and I would appreciate your views and commitment in this 
regard--will be taken into account in the negotiations on the 
memorandum of understanding that are ongoing right now as we 
speak.
    Secretary Carter. At--yes, those discussions are conducted 
by the White House, but, obviously, completely informed by the 
views of myself and the Chairman on the military dimensions of 
it. Extensive discussions that I have with my colleagues, 
including my good friend, the Defense Minister of Israel, Bogie 
Ya'alonin, and that the Chairman has with his counterpart 
there.
    Senator Blumenthal. Thank you.
    Thanks, Mr. Chairman.
    Senator Reed. Thank you, Senator Blumenthal.
    Gentlemen, on behalf of the Chairman, let me thank you for 
your testimony, for your service, and declare that the hearing 
is adjourned.
    Thank you very much.
    [Whereupon, at 12:13 p.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Kelly Ayotte
                     u.s. naval station guantanamo
    1. Senator Ayotte. Do you agree with Admiral Tidd that we have a 
strategic interest in maintaining U.S. Naval Station Guantanamo 
regardless of detention operations?
    General Dunford. Yes, I agree with Admiral Tidd on the importance 
of Naval Station Guantanamo.

    2. Senator Ayotte. Setting aside the detention center, how is U.S. 
Naval Station Guantanamo strategically and operationally valuable to 
the United States?
    General Dunford. U.S. Naval Station Guantanamo is a strategically 
situated deep water port, an ideal location from which to service, 
stage and project forces especially for Humanitarian Assistance/
Disaster Relief and counter-narcotics missions, and secure the air and 
maritime approaches to the U.S.
    In accordance with E.O. 13276, U.S. Naval Station Guantanamo 
supports Department of Homeland Security (DHS) and Department of State 
(DOS) migrant interdiction operations by providing space and logistical 
support for migrant processing and operations in the event of a mass 
migration contingency; and by hosting a ``steady-state'' DHS/DOS 
migrant processing center.
                             new syria plan
    Senator Ayotte. The administration has announced a new plan to 
support, train, and equip counter-ISIS forces.

    3. Why do you believe this approach will work when the last one 
failed?
    Secretary Carter. The Department of Defense (DOD) modified the 
Syria Train and Equip program based on lessons learned from the earlier 
version. This improved program focuses on supporting and enabling 
groups that are actively fighting the Islamic State of Iraq and the 
Levant (ISIL) by training key individuals to be force multipliers for 
those groups. Graduates of the modified training program will become 
DOD's ``eyes and ears'' on the battlefield; they will improve the 
ability of their groups to coordinate airstrikes on ISIL positions and 
improve the Coalition's intelligence and situational awareness on the 
ground in Syria. This new approach has already shown success in 
northern Syria, and we plan to build on it to accelerate the fight 
against ISIL in Syria.

    4. Senator Ayotte. What is DOD going to do to ensure weapons do not 
end up in the hands of those who oppose the United States?
    Secretary Carter. The Department of Defense (DOD) takes several 
steps to mitigate the risk of weapons falling into the wrong hands and 
being used by those who oppose the United States. The Department 
appropriately vets groups according to applicable standards, including 
those prescribed in section 1209 of the National Defense Authorization 
Act for Fiscal Year 2015. Vetted leaders are assessed for associations 
with terrorist groups or with Syrian or Iranian Government-aligned 
militias, in accordance with DOD procedures, and must provide a 
credible commitment to promote respect for human rights and the rule of 
law. DOD also provides weapons and equipment to vetted counter-Islamic 
State of Iraq and the Levant (ISIL) forces on an incremental basis 
based on the estimated requirement to achieve the operational 
objective. Use of the materiel provided is monitored by available 
means, including by U.S. personnel on the ground. Assistance can and 
will be curtailed in the event of misuse, including if the support is 
used for purposes other than counter-ISIL operations or if it is 
misdirected to terrorist organizations.
                     iran ballistic missile threat
    5. Senator Ayotte. What is your assessment of Iran's ballistic 
missile activities and the threat Tehran's ballistic missiles pose to 
our forward deployed troops, our European allies, and regional allies 
like Israel?
    Secretary Carter. Iran's ballistic missile activities pose a 
significant threat to the Joint Force and our regional allies and 
partners, particularly Israel. However, I believe that we are prepared 
to counter acts of Iranian aggression that threaten our national 
interests, allies, or partners in the region.

    6. Senator Ayotte. Do you believe Tehran is currently deterred or 
contained with respect to its ballistic missile activities?
    General Dunford. I would not categorize the regime as being 
deterred or contained. Iran continues to regularly develop and test 
ballistic missiles. Regardless, we maintain a military advantage over 
Tehran, and will continue to refine and revise our contingency plans to 
defend against Iranian aggression and coercive tactics in the region.
                lessons learned from libya intervention
    7. Senator Ayotte. How would you describe the situation today in 
Libya with respect to ISIS and al Qaeda affiliates?
    General Dunford. The continued existence of al-Qaeda in the Islamic 
Maghreb (AQIM) and the expansion of the Islamic State of Iraq and the 
Levant (ISIL) into Libya represent growing threats to the stability of 
the nascent Libyan Government as well as Western interests in Libya, 
Egypt, Tunisia, Algeria, Morocco, and the Sahel.
    Intelligence community assessments estimate Islamic State in Libya 
(IS-Libya) numbers to be between 4,000-6,000 fighters, which represents 
the most significant ISIL branch outside of Iraq and Syria. IS-Libya 
has taken advantage of the poor security situation and a lack of 
military pressure to pursue its goals and maintain a stronghold in the 
central coastal city of Surt. If left unchecked, IS-Libya will likely 
expand its influence, pushing west and south while attempting to 
subsume existing VEOs, militias, and tribal groups. Several factions 
are willing and able to counter IS-Libya, but individually they lack 
the capacity to sustain pressure and are reluctant to weaken themselves 
against politically contentious rivals.

    8. Senator Ayotte. In terms of lessons learned for the future, what 
mistakes do you believe were made after the intervention in Libya that 
left room for ISIS to expand there?
    General Dunford. Violent extremism thrives where there is a lack of 
governance. United States policy towards Libya aims to achieve two 
mutually reinforcing objectives: 1) to support the United Nations-
backed Government of National Accord in Tripoli; and 2) degrade and 
ultimately defeat IS-Libya. Requests from Government of National Accord 
for military assistance are assessed by the Department of Defense in 
light of achieving those objectives.
                               __________
               Questions Submitted by Senator Joni Ernst
                   shiite popular mobilization forces
    Senator Ernst. I remain concerned that the Iraqi Government is not 
taking adequate steps to become inclusive and foster a multi-sectarian 
Iraq. Two weeks ago, the State Department released its Country Report 
on Human Rights Practices for 2015. In this report, the State 
Department found that ``Shiite Popular Mobilization Forces (PMF) in 
many cases operated independently and without oversight or direction 
from the government.'' The State Department also found that ``Shiite 
PMF and Iraqi Government security forces killed at least 56, but maybe 
up to 70, Sunni men near Muqdadiyah, Iraq, in Diyala Province.''

    9. Are you familiar with this incident?
    Secretary Carter. I am not familiar with this incident and refer 
you to the Department of State for additional information.

    10. Senator Ernst. In relation to question one, could you describe 
the actions you took in addressing the incident with the Iraqi 
Government and the actions of the Iraqi Government in response to these 
alleged atrocities?
    Secretary Carter. Actions taken to address any allegations of 
atrocities would be done through diplomatic channels, and I refer you 
to the Department of State for additional information on how the 
incident was handled.

    11. Senator Ernst. Has the Iraqi Government held any government 
official or Shiite PMF personnel accountable for the reported 
atrocities recounted in the State Department Country Report on Human 
Rights Practices for 2015 atrocities?
    Secretary Carter. Actions taken to address any allegations of 
atrocities would be done through diplomatic channels, and I refer you 
to the State Department for additional information on how the incident 
was handled.

    12. Senator Ernst. Has the Iraqi Government held any government 
official or Shiite PMF personnel accountable for any reported 
atrocities?
    Secretary Carter. Actions taken to address any allegations of 
atrocities would be done through diplomatic channels, and I refer you 
to the State Department for additional information on how the incident 
was handled.

    13. Senator Ernst. Do you agree with the State Department's 
assessment that Shiite PMF are able to operate independently and 
without Iraqi Government oversight?
    Secretary Carter. Yes, I do agree with the State Department's 
assessment. Although most of the Popular Mobilization Forces (PMF), 
including Iranian-backed Shiite militias, operate under the control of 
the Iraqi Government, some forces operate outside government control.

    14. Senator Ernst. What role does the Department believe the Shiite 
Popular Mobilization Forces will play once ISIS is defeated?
    Secretary Carter. The long-term role of the Shiite Popular 
Mobilization Forces (PMF) has yet to be determined. Although there are 
some Iranian-backed militias within the PMF, others are patriotic 
Shiite who answered the call to duty in the summer of 2014 at the 
behest of Ayatollah Sistani, and may return to their civilian duties 
once the Islamic State of Iraq and the Levant (ISIL) is defeated.
                               __________
             Questions Submitted by Senator Mazie K. Hirono
                   countering the isil media campaign
    15. Senator Hirono. One advantage ISIL has persisted in is its 
ability to recruit young men and women and influence actors around the 
world through its online media campaign. San Bernardino is a recent 
example. In your opinion, how can we counter this or overcome the 
effectiveness of ISIL's cyber presence? What is Cybercom doing to 
counter ISIL in this regard?
    Secretary Carter. I agree that the Islamic State of Iraq and the 
Levant's (ISIL) effective use of cyberspace as a recruitment mechanism 
has posed serious challenges, but the Department has implemented 
several programs to overcome ISIL's use of the internet and social 
media. U.S. Central Command is currently conducting a number of 
counter-propaganda and counter-recruitment military information support 
operations programs to dissuade vulnerable target audiences in Iraq, 
Syria, and other parts of the Middle East from joining ISIL or from 
providing ISIL with other material support. These operations are being 
conducted through media channels best suited to the target audiences, 
including online and social media. Cyber capabilities in support of 
Operation INHERENT RESOLVE also aim to ensure that commanders in the 
field have timely, robust cyber capabilities that they can utilize to 
support mission requirements most effectively.
                                metrics
    16. Senator Hirono. Our war on terror and our efforts to combat 
ISIL continue to be one of our nation's top priorities. When reviewing 
our progress and how successful we are at dealing with ISIL, what 
metrics are being used?
    General Dunford. [Deleted.]

                                 [all]
</pre></body></html>
